<html>
<title> - IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 22, 2002

                               __________

                           Serial No. 107-148

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2003
84-331 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
              Nicholas Coleman, Professional Staff Member
                          Conn Carroll, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 22, 2002................................     1
Statement of:
    Borane, Ray, mayor, city of Douglas, AZ; Chris M. Roll, 
      Cochise County Attorney; Larry Dever, Cochise County 
      Sheriff; Harlan Capin, president, Nogales Alliance, Port of 
      the Future; James J. Dickson, administrator and CEO, Copper 
      Queen Community Hospital...................................    67
    De La Torre, Donna, Director, Field Operations, Arizona 
      Customs Management Center, U.S. Customs Service; and David 
      Aguilar, Chief Patrol Agent, Tucson Sector, U.S. Border 
      Patrol, Immigration and Naturalization Service.............    29
Letters, statements, etc., submitted for the record by:
    Aguilar, David, Chief Patrol Agent, Tucson Sector, U.S. 
      Border Patrol, Immigration and Naturalization Service, 
      prepared statement of......................................    42
    Borane, Ray, mayor, city of Douglas, AZ, prepared statement 
      of.........................................................    72
    Capin, Harlan, president, Nogales Alliance, Port of the 
      Future, prepared statement of..............................    92
    De La Torre, Donna, Director, Field Operations, Arizona 
      Customs Management Center, U.S. Customs Service, prepared 
      statement of...............................................    32
    Dever, Larry, Cochise County Sheriff, prepared statement of..    82
    Dickson, James J., administrator and CEO, Copper Queen 
      Community Hospital, prepared statement of..................   144
    Kolbe, Hon. Jim, a Representative in Congress from the State 
      of Arizona:
        Prepared statement of....................................    10
        Various prepared statements..............................   151
    Roll, Chris M., Cochise County Attorney, prepared statement 
      of.........................................................    77
    Shadegg, Hon. John, a Representative in Congress from the 
      State of Arizona, prepared statement of....................   172
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     3


  IMPROVING SECURITY AND FACILITATING COMMERCE AT THE SOUTHERN BORDER

                              ----------                              


                       FRIDAY, FEBRUARY 22, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                  Sierra Vista, AZ.
    The subcommittee met, pursuant to notice, at 9 a.m., in the 
Performing Arts Center, Buena High School, 525 Buena School 
Boulevard, Sierra Vista, AZ, Hon. Mark E. Souder, (chairman of 
the committee) presiding.
    Present: Representative Souder.
    Also present: Representatives Shadegg and Kolbe.
    Staff present: Chris Donesa, staff director; Nicholas 
Coleman and Kevin Long, professional staff members; and Conn 
Carroll, clerk.
    Mr. Souder. Good morning. If everybody could take their 
seats and we can start. The subcommittee hearing will now come 
to order. Good morning and thank you all for coming.
    Today our subcommittee will explore the status of the 
border crossings in the Southeast Arizona region. Since last 
summer, this subcommittee has been considering ways to improve 
the both the security of our Nation's borders, and the 
efficient flow of international commerce, travel, and tourism.
    Continuing problems with illegal immigration and smuggling 
of drugs, and other contraband, over the Southern and Northern 
borders have also prompted calls to hire more Federal law 
enforcement officers, and to expand the physical and 
technological infrastructure needed to allow those officers to 
work effectively.
    The attacks of September 11th and their aftermath have 
emphasized the urgency of dealing with the terrorist threat, as 
well as the problems of narcotics interdiction and illegal 
immigration.
    At the same time continued delays at some border crossings, 
and a reduction in commercial and commuter traffic from the 
pre-security measurements put in place after September 11th 
have raised concerns about the effect of these policies on 
trade, tourism, and travel.
    Congress has provided strong short term support, and is 
considering numerous proposals to deal with these problems over 
the long term. In its recent budget, President Bush put forth a 
plan to significantly increase the personnel and resources at 
the borders and ports of entry.
    Our subcommittee is supportive of these efforts and we are 
open to exploring all of the various proposals. However, 
finding and implementing solutions is much more difficult than 
simply identifying the problems.
    It is important that Congress have a thorough understanding 
of how quickly border security agencies can meet the new 
requirements, and what the impact on the new emphasis on anti-
terrorism will be on personnel and resource decisions at each 
of these agencies.
    And in a rush to protect our Nation's borders from 
terrorists, we must not hamper our ability to protect citizens 
from other dangers. This hearing is the sixth in a series of 
field hearings, which we have held at border crossings and 
ports of entry throughout the United States.
    We have already held three hearings on the Northern border, 
a hearing in San Diego, and one at the Ports of Los Angeles and 
Long Beach, CA. At each location, this subcommittee is 
assessing the problems facing Federal agencies, local 
lawmakers, and community and business leaders with respect to 
border policy.
    We will focus on what new resources are needed for the 
Federal Government to most effectively administer the border 
crossing, as well as what new policies could be pursued to ease 
the burden placed on commerce, travel, and tourism.
    We will also explore how the new emphasis on preventing 
terrorism may affect the ability of these agencies to carry out 
their other vital missions. These issues are all very important 
and extremely urgent, and I look forward to hearing from our 
witnesses today about ways to address them.
    We have invited representatives of agencies primarily 
responsible for protecting our borders of this region, namely 
the U.S. Customs Services, and U.S. Border Patrol, Immigration 
and Naturalization Service, to testify here today.
    The subcommittee is vitally interested in ensuring the 
effective functioning of these agencies, and we will continue 
to work with them and their staff to ensure the continued 
security and effective administration of our Nation's borders.
    We welcome Ms. Donna De La Torre, the Director of Field 
Operations at the Arizona Customs Management Center; and Mr. 
David Aguilar, Chief Patrol Agent of the U.S. Border Patrol's 
Tucson Sector.
    When examining border policies, we must of course also seek 
the input of representatives of the local community whose 
livelihood is directly affected by changes at the border.
    We therefore welcome the Honorable Ray Borane, mayor of the 
city of Douglas, AZ; the Honorable Chris M. Roll, Cochise 
County; the Honorable Larry Dever, sheriff of Cochise County.
    And Mr. Harlan Capin, president of Nogales Alliance and 
Port of the Future; and Mr. James J. Dickson, administrator/CEO 
of Copper Queen Community Hospital. We thank everyone for 
taking time this afternoon to join us for this important 
discussion. I would now like to recognize Mr. Kolbe for any 
opening statement that he would like to make.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.001
    
    [GRAPHIC] [TIFF OMITTED] T4331.002
    
    [GRAPHIC] [TIFF OMITTED] T4331.003
    
    Mr. Kolbe. Thank you very much, Chairman Souder, and I 
really appreciate your willingness to come this distance and 
hold this hearing. I know that you had to make some significant 
changes to your schedule, and I am very grateful to you. This 
is a very important hearing for us.
    We want to welcome you to the desert of Southeastern 
Arizona. You probably don't see quite as many scorpions and 
saguaro cactus back in Indiana as you do out here, but we are 
delighted to have you here, and wish you could stay for some of 
the open and some of the great weather that we have got here.
    I also want to welcome those that are going to be 
participating here this morning, and on the second panel we are 
going to have Mayor Borane, Sheriff Dever, County Attorney 
Chris Roll.
    You will be hearing from Jim Dickson, from the Copper Queen 
Hospital, and Harlan Capin, President of the Nogales Alliance, 
Port of the Future. And of course here on this first panel, we 
have the representatives from the U.S. Customs Service, and the 
Border Patrol.
    And to all of them I say welcome. Our border must be 
managed to stop the flow of illegal and dangerous activity into 
the United States. The Border Patrol and the Customs Service 
are two important Homeland Security Agencies, but the military 
is also appropriately involved in this.
    We all know that the military continues to help out on the 
border, effectively providing radar systems and aerial 
reconnaissance, air and ground transportation, communications, 
intelligence, photography, video, and technology support.
    In fact, I support efforts to enhance the military's 
presence on the border, especially using our national guard to 
help secure our border and to relieve the agents of other 
duties.
    However, this does not mean that we should put up a wall, 
or turn our border into a demilitarized region, like the Korean 
Demilitarized Zone. We are not at war with Mexico. Mexico is a 
friend, and it is a neighbor.
    We have to find ways to allow people and commerce to cross 
the border, while at the same time blocking illegal 
immigration, drug smuggling, people smuggling, and the 
smuggling of other contraband, such as weapons.
    We have to manage, and we have to control our border, and 
not shut it down, and certainly not leave it unattended. One 
issue that is very important in this region, Mr. Chairman, is 
the illegal immigration problem.
    In Arizona, we have been a victim of an INS decision that 
was made some time ago to selectively harden the border in 
parts of Texas and California, which has had the result of 
funneling the illegal immigration into the more rural parts of 
Arizona.
    And we are feeling the heavy burden of this policy. On 
August 2, 2001, the General Accounting Office released a report 
called the ``INS Southwest Border Strategy: Resource and Impact 
Issues Remain after Seven Years.'' That is the title of the 
report.
    And it confirms this in part, quoting just one paragraph 
from that GAO report, which says,

    The primary discernable effect of the INS strategy, based 
on INS apprehension statistics, appears to be the shifting of 
the illegal alien traffic.
    Between 1998 and 2000, apprehensions declined in three 
border patrol sectors: San Diego, CA; El Paso, and McAllen, TX. 
But increased in five of the other six Southwest border 
sectors.
    The extent to which INS border control efforts may have 
affected overall illegal entry along the Southwest border 
remains unclear, however.

    Lack of resources for the INS is not the problem. As a 
member of the Appropriations Subcommittee which funds the INS, 
I had watched as Congress since 1993 has more than tripled the 
INS budget from $1\1/2\ billion to $5 billion in 2001.
    During the same number of years the number of funded INS 
personnel has grown from 18,133 to 33,537. That is an increase 
of 85 percent. This year Congress provided another $1 billion 
to bring it to over $6 billion for the INS, and I support this 
increase, because the INS plays an ever-important role in 
patrolling and protecting our borders.
    Nevertheless, it is clear to me that the INS has not been 
able to manage the resources that we are provided. Let me say, 
and let me emphasize, when I say that the agency has not been 
able to manage this money and the increased mission.
    I want to emphasize this point because I am a strong 
supporter of Federal law enforcement and have nothing but 
admiration for the dedicated people who work in this area. The 
INS employees are hard working, very committed people, who have 
devoted their lives to protecting American citizens, and they 
should be commended for their work.
    And however there may be poor management, and sometimes a 
few bad apples, and that unfortunately has an effect of 
significantly ruining an agency's reputation, and destroying 
the public's confidence, and its integrity.
    Everybody has heard about poor judgments that were made 
years ago by some internal revenue service employees, but that 
didn't mean that every IRS employee was a scoundrel.
    Congress did force a reform of the IRS, and now I think its 
reputation has been approved, and I think that the lives of its 
employees are better as a result of that. In my mind, I think 
the same reform has to happen with the INS.
    The agency structure and management isn't working, and I 
think we have to restore the integrity of the agency. I have 
been a supporter for many years of the recommendation made by 
the U.S. Commission on Immigration Reform that would split the 
INS into two parts.
    In its final report to Congress, the Commission recommended 
that the processing of legal immigration and naturalization 
claims be transferred to the Department of State.
    With the exception of work site enforcement and detention, 
the INS enforcement programs then would appropriately remain at 
the Department of Justice as an elevated enforcement bureau.
    INS responsibility for work site enforcement would be 
transferred to the Department of Labor. The commission 
suggested turning over most of INS's detention operations to 
the U.S. Marshals Service and the Bureau of Prisons.
    This would be a complicated reorganization since it takes 
pieces and puts it in several different places. And the first 
step in this process may happen this year. Legislative 
proposals are pending in Congress to split the INS into two 
separate agencies for enforcement and immigration services. I 
hope that the Congress will act on these reforms.
    U.S. Customs has gone through some challenging times 
itself, and there was a need to change the old ways. There was 
much work that was done on Customs, including Customs 
integrity.
    In fact, for the previous 4 years that I was chairman of 
the Treasury, and General Government Appropriations 
Subcommittee, one of the things that I did was help to direct 
the Treasury Under Secretary of Enforcement to task the Office 
of Professional Responsibility to conduct a comprehensive 
review in 1998.
    And today I think that Customs is a better agency for the 
public and for its employees because of this internal review 
which was done. In fact, I think the Customs Service can be a 
model for the rest of the bureau around the world.
    The stark difference between Custom's success in Arizona 
and the Border Patrol's failures I think is striking. Mr. 
Chairman, let me just provide a few statistics on illegal 
immigration so that everyone is clear about the people who live 
and work in this area have to deal with daily.
    Members of the subcommittee, I am sorry that we don't have 
these on large charts here, but we have them available on 
charts, and they are available down there.
    Members of the subcommittee, and I think people testifying 
here, have these charts which show the difference of this first 
one here, which is actually chart two, that shows the decline 
in Border Patrol apprehensions in San Diego and El Paso, while 
the numbers skyrocketed here in the Tucson sector has really 
just gone through the roof, declined over the last year.
    And for which we are not quite sure yet that in 1 year we 
can have the real answers for what is the reason for that, 
because it is declining all along the border this past year. 
But Del Rio, McAllen, El Centro, all were up very 
significantly, and only El Paso and San Diego have been down 
over the last several years.
    I think the decline this year that we have experienced, or 
in 2001 I should say, is probably more to do with the 
recession. We don't have enough data yet to be sure, and of 
course the terrorist attacks on September 11th, which really 
kept people away from the border because of the increase in the 
homeland security, and the fear of people getting caught, and 
they might find themselves in more deeper trouble than they had 
before.
    The next chart, chart three, shows the Tucson border 
apprehensions here within the different stations, and you will 
notice again the incredible increase in the numbers of the 
Nogales, the Douglas, and Naco sectors.
    We don't see that kind of an increase in the inland 
sectors, Wilcox, Casa Grande, Sonoita, Ajo. Well, Ajo is on the 
border. We don't see it in the western area as much either, but 
over in Nogales and going east toward the New Mexico border, 
and Douglas, and in Douglas this is a staggering increase in 
the numbers there.
    And then finally chart four shows that although the number 
of patrol hours have exploded since 1997, the number of 
apprehensions has really been fairly level. And I think this is 
why I came to the conclusion about the management, and that I 
think there is some problem.
    Chart five shows how it might happen, and how the numbers 
in San Diego as their patrol hours went up dramatically, the 
numbers of apprehensions took a constant and steady decrease 
there.
    In other words, it was having its effect of deterring 
people from coming across the border, and that's why I believe 
very strongly that we need to deploy our resources to the 
border so that we are not continually playing cat and mouse 
with illegal immigrants in our back yards, which also has the 
added impact of problems for the citizens who live in those 
back yards.
    Citizens of Arizona should not have to withstand the 
onslaught of hundreds of thousands of illegal immigrants 
traveling through the area and destroying property, and 
straining our health care facilities, littering our lands with 
garbage and human waste, redirecting law enforcement efforts 
away from local crime, saturating our court systems with cases.
    So I am hopeful that this hearing will highlight some of 
the deficiencies, and some of the strengths in our border 
strategy, as well as hopefully pointing the way toward some new 
and innovative ways in which we can manage the border with 
Mexico.
    Again, Chairman Souder, I want to thank you very much for 
holding this hearing. The impact of our policies don't stop 
here at this border. They are found in places as far away as 
Fort Wayne, Indiana, because even though the illegal immigrants 
come across through our border, they generally don't stay here.
    We love tourists to come, and we have a lot of them stop 
along the way to different destinations, but for illegal 
immigrants, by and large, Cochise County is simply a transient 
zone to other parts of the country.
    So I look forward to hearing from the witnesses, and 
appreciate the opportunity to participate in the hearing. Thank 
you very much.
    [The prepared statement of Hon. Jim Kolbe follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.004
    
    [GRAPHIC] [TIFF OMITTED] T4331.005
    
    [GRAPHIC] [TIFF OMITTED] T4331.006
    
    [GRAPHIC] [TIFF OMITTED] T4331.007
    
    [GRAPHIC] [TIFF OMITTED] T4331.008
    
    [GRAPHIC] [TIFF OMITTED] T4331.009
    
    [GRAPHIC] [TIFF OMITTED] T4331.010
    
    [GRAPHIC] [TIFF OMITTED] T4331.011
    
    [GRAPHIC] [TIFF OMITTED] T4331.012
    
    [GRAPHIC] [TIFF OMITTED] T4331.013
    
    [GRAPHIC] [TIFF OMITTED] T4331.014
    
    [GRAPHIC] [TIFF OMITTED] T4331.015
    
    [GRAPHIC] [TIFF OMITTED] T4331.016
    
    [GRAPHIC] [TIFF OMITTED] T4331.017
    
    [GRAPHIC] [TIFF OMITTED] T4331.018
    
    Mr. Souder. Thank you very much, Congressman Kolbe.
    Congressman Shadegg.
    Mr. Shadegg. Mr. Chairman, I, too, want to thank you for 
holding this hearing, and with unanimous consent, I will insert 
my entire written statement into the record, and in the 
interest of time, briefly summarize it here this morning.
    Arizona and Cochise County, I believe, face a crisis of 
illegal immigration. We spent last night on the border with the 
border patrol looking at various sectors until after midnight.
    And while I was very impressed with what I saw and the 
efforts that are being made, those efforts are simply not 
adequate. We are not doing enough at this point in time to stop 
illegal immigration, nor are we doing enough to stop the inflow 
of drugs.
    Arizona ranchers, and farmers, and residents of Cochise 
County are on the front line, and they face a crisis. Their 
water tank valves are being left open, and their fences are 
being destroyed, litter is strewn on their property, and human 
feces piles up.
    The local law enforcement officers, Sheriff Larry Dever, 
and others, face a crisis which is not of their making, and of 
which they do not have the resources to meet that challenge. I 
do not believe that the INS or the Border Patrol have adequate 
resources.
    As my colleague, Mr. Kolbe, has pointed out, INS policy 
almost intentionally decided to focus border crossing in this 
area by strengthening the border in Texas, and by strengthening 
the border in San Diego.
    And it is now time, and I know that others in our 
delegation have fought hard, including Mr. Kolbe, for those 
resources, but we must do more to strengthen our border here in 
this sector of the company.
    If we do not, I think we will face indeed an open revolt. 
We have been at crisis points in the past, and at the moment I 
think we are doing a slightly better job, but not enough. It is 
clear to me that some of the hi-tech equipment that I saw last 
night is useful, and is doing an improved job.
    But we simply do not have enough of it. When you can look 
at the Douglas line and see that there are a few miles of 
fence, maybe 6 miles of fence, or you can look at the Nogales 
line and see there are even fewer miles of fence, and when you 
see the intensity of deployment in those areas, you have to 
understand that there is an ability to get around that 
deployment of services.
    It is clear that people are getting in, and not only is 
this a serious crisis for illegal immigration, which is doing 
damage to our economy and putting a burden on our entire social 
service structure, and a burden that the American taxpayer 
should not have to bear, it is also the cause and enabler of a 
tremendous flow of illegal drugs.
    And I know, Mr. Chairman, of your life long dedication to 
fighting the drug problem, and of your solid knowledge of the 
fact that the drugs that cross this border make it to every 
community, and destroy the lives of young children all across 
this country, including in your district in Indiana, which you 
know I have visited with you.
    And I applaud you for your efforts to fight that, and to do 
everything that you can. It seems to me that there is much that 
we can do. My colleague, Mr. Kolbe, has pointed out that INS 
reform is called for.
    I strongly believe that we can no longer tolerate the 
bifurcation of duties that the INS has, and to have together in 
the INS the duty to bring people in, and to approve their legal 
immigration; and at the same time the duty of holding out the 
illegals simply is a conflict of interest that this Congress 
should not tolerate.
    It does not work and I join my colleague, Mr. Kolbe, in 
saying that I hope that reform legislation passes this year. 
Its divided duties are not helping it perform its job. I do 
understand that this is a vital corridor for commerce, and that 
business people in southern Arizona and indeed across our State 
depend upon a functional border.
    And as you know, Chairman Souder, you and I visited that 
border in Nogales I guess 4 or 5 years ago, and spent some time 
there, and saw the new crossing station which was done, and the 
new facilities that had been constructed to bring commercial 
trucks across the border.
    When we make our efforts to ensure that illegal immigration 
is stopped, we cannot do so in a fashion which stops the 
commerce, which is essential. But it seems to me that we have a 
duty, and it seems to me that the Federal Government is failing 
the people of Arizona.
    I have dedicated a great deal of my career to the health 
care issue in America, and there is no question but that health 
care in southern Arizona is being destroyed by the burden of 
illegal immigration.
    Not too many months ago the trauma centers in Tucson 
threatened to close every single level one trauma center in 
Tucson because they couldn't afford to keep them open. As a 
result of a law called Emtola, which I am working to reform, 
anyone who shows up at an American emergency room, be they a 
citizen or not, is entitled to free health care.
    Indeed, the hospital cannot even ask if they have the 
ability to pay. In addition to that, as a result of court 
impartation of that law, if a doctor sees an individual in the 
hospital in the emergency room who can't afford to pay, and 
that individual requires further treatment, they must see that 
individual in their office for free.
    You can imagine the burden that puts on doctors, and that 
is magnified manyfold here right at the border. And it is 
causing a crisis for the people of this community who are legal 
residents and citizens of the United States who need that 
health care when their resources are being dedicated in other 
places.
    Again, Mr. Chairman, I commend you for holding this 
hearing, and I do want to conclude with one notion. There is an 
emerging sentiment in Washington, DC, that the terrorist 
threat, the threat of Middle Eastern or people of Iran-Iraqi 
origin, who are associated with Al-Qaeda, are crossing the 
Canadian border, and are a greater threat at the Canadian 
border than at the Mexican border.
    I simply do not agree with that sentiment. I do not believe 
the statistics support that, and I would site as one point of 
that a newspaper column which appeared on Monday, February 
18th, just this last Monday, documenting a number of six 
illegal immigrants caught crossing the border at Valpurias--I 
am not sure that is how you pronounce it.
    Two were from Afghanistan, and one was from Pakistan, and I 
believe we have a severe problem at the Southern border as the 
Northern border, and I commend you for spending your time to 
come here, Mr. Chairman.
    Mr. Souder. Thank you. Let me first thank Congressman Kolbe 
for hosting me in your district. This is obviously a much 
warmer place than Indiana right now. In fact, I think you are 
double or more on the temperature.
    Unfortunately, I am headed back to Fort Wayne this 
afternoon and so I won't be able to enjoy it very much, and I 
appreciate the two Members from Arizona's interest in this 
subject, which isn't now. It has been there since I have been 
in Congress, and even back to when I was a staffer.
    Congressman Kolbe is the chairman of the committee that 
funds a lot of our overseas narcotics efforts, and if we don't 
get control of it in Columbia and other places, it merely comes 
up and hits this border.
    He also is on the subcommittee that oversees and has 
chaired the subcommittee that oversees a lot of the funding. We 
have very difficult funding questions, and his leadership, and 
his interest in both the border, the narcotics, and the trade, 
have been critical in Congress.
    Congressman Shadegg and I were elected in the same class. 
We have worked together, and he is persistently hounding me all 
the time about Arizona problems, and I think they are both 
strong advocates for the State of Arizona.
    We have attempted to balance clearly in these hearings the 
different problems, and what we see is each crossing is 
different, and as John often says, history may not repeat 
itself, but often it rhymes. And that is what we see with the 
crossings.
    They aren't exactly the same, but often they have 
similarities. But there are unique differences, and we have 
concentrated on the south border, and there has been a lot of 
diversion in the north border.
    It is not that there aren't terrorist problems on the south 
border, in addition to huge and larger immigration problems, 
and narcotics problems, although we are increasingly having 
narcotics problems on the north border.
    In Detroit, there are 225,000 Arab Americans, and the 
largest Al-Qaeda cells arguably in the world are in Montreal 
and Toronto. And we are having a very difficult time trying to 
control the north border, looking for the occasional terrorist, 
which is a different problem than we have on the south border, 
where you have masses of people, and where people are often 
hiding in them, and coming in illegally.
    And the quantity of cocaine, and heroin, and even marijuana 
that is coming from the south is huge, but increasing the 
marijuana, potent marijuana, is coming in from the north 
border.
    And the ecstacy is coming in from the north border, and the 
meth is coming in from the north border, and so we are trying 
to figure out how simultaneously we can continue the success 
that we have begun to have, at least in parts of the south 
border, like San Diego.
    And at the same time, stiffen our defenses in the north 
border without wrecking our economy when people are hurting for 
jobs. And that is our dilemma, and that is why we are here 
today to hear the unique problems of what is happening in 
Arizona as we take actions in other areas.
    Now, before proceeding with the witnesses, I need to take 
care of a couple of procedural matters. First, I ask for 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record.
    And that any answers to the written questions provided by 
the witnesses also be included in the record, because we may 
have some followup questions or information that the witnesses 
want to submit. So without objection, it is so ordered.
    Second, I ask for unanimous consent that all exhibits, 
documents, and other materials referred to by the Members and 
the witnesses may be included in the hearing record, and that 
all Members be permitted to revise and extend their remarks, 
and without objection, it is so ordered.
    This is an oversight committee. For those of you who follow 
the adventures in which are frequent and complex of the last 
administration, this committee, and that we are a subcommittee 
and part of, is the Government Reform Committee, that did 
everything from the Travel Office, to Waco, to the China 
investigations, to the FBI files.
    And when you do oversight of the executive branch and 
issues, every witness is sworn in and it is part of a record of 
making sure that the laws that Congress pass are implemented in 
the way that we intended, and followed through.
    We do not have open mics. I know that some people have 
expressed that. If you have written statements or comments that 
you want to make, if you submit those to Congressman Kolbe or 
Congressman Shadegg, as you heard me just read, our standard 
procedure is that Members can put information in the record.
    But we do not--it is not like the town meetings that each 
of us hold. This is an official investigation by the Congress 
over the executive branch activities. And I know that often 
frustrates many people who came out.
    But sometimes we do it where there is 5 people watching us, 
and sometimes there is 300, but we need to go through our same 
procedures as we do all oversight hearings. Finally, I ask for 
unanimous consent that all Members present be permitted to 
participate in the hearing.
    One last thing on what we are doing. Each of the hearings 
then becomes a book of about that border, and with the 
additional charts, and that we put in with the information, and 
with the followup questions, and with any statements that 
people put in.
    And then we will also be doing an interim, and then a 
final, border report, because certainly we are doing the most 
systematic examination of each of the States on the south and 
north border, and we will have that first interim report in 
probably 1\1/2\ to 2 months, and then a final one as we move 
into the final legislative and appropriations process in the 
summer.
    With that, I would like to move to the first panel. It is a 
longstanding congressional protocol that government witnesses 
representing the administration testify first. So our first 
panel consists of those witnesses. Would the witnesses on the 
first panel please rise, and raise your right hands, and I will 
administer the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both of the witnesses 
answered in the affirmative. We will first recognize Ms. De La 
Torre. You are recognized for your opening statement for the 
Customs Service.

 STATEMENTS OF DONNA DE LA TORRE, DIRECTOR, FIELD OPERATIONS, 
 ARIZONA CUSTOMS MANAGEMENT CENTER, U.S. CUSTOMS SERVICE; AND 
 DAVID AGUILAR, CHIEF PATROL AGENT, TUCSON SECTOR, U.S. BORDER 
         PATROL, IMMIGRATION AND NATURALIZATION SERVICE

    Ms. De La Torre. Chairman Souder, Mr. Kolbe, and Mr. 
Shadegg, thank you very much for your invitation to address 
this committee and for the opportunity to appear before you 
today.
    I would like to discuss the efforts of the U.S. Customs 
Service to address the terrorism threat, and the challenges 
that exist along the U.S./Mexican border in the Arizona Customs 
management center.
    In the Arizona management center, clearly the majority of 
our resources are focused on processing traffic through the six 
ports of entry along the Arizona/Mexico border in Yuma, Pima, 
Santa Cruz, and Cochise Counties.
    Just last year in Arizona, we processed, and processed 
traffic of 10 million private vehicles, carrying 23 million 
people into our country. We also processed 9 million 
pedestrians, for a combination of 32 million people arriving in 
the United States legally from Mexico or other parts of the 
world in to Arizona.
    To put this volume in perspective, the combined 32 million 
arriving persons is greater than the combined international 
arrivals through this country's three major gateway airports of 
JFK, Miami, and Los Angeles International Airports.
    Wait times certainly did increase for a time after 
September 11th, and we do see those traffic volumes reaching 
right back to pre-September 11th levels. Additionally, we 
processed 335,000 commercial trucks coming into this country, 
and laden on those trucks were goods, with a value in excess of 
$10 billion.
    We collected from those commercial entries duties for the 
U.S. Government of $41 million, and so that $41 million was 
redeposited into the U.S. General Fund.
    Clearly our challenge though is to segregate and to sort 
out suspicious persons and goods from legitimate travel and 
trade. In so doing last year, U.S. Customs Inspectors, canine 
officers at the ports of entry, and U.S. Customs Special Agents 
who were working between the ports of entry, seized more than 
223,000 pounds of narcotics.
    To do this, we have to employ a multi-layered strategy that 
combines risk management, targeting, and technology, to sort 
out this traffic from the legitimate travel and trade. We 
employ a rigorous use of automated and manual pre-screening 
systems, dedicated individual efforts of customs officers, and 
National Guard members.
    We utilize a wide array of state-of-the-art detection 
technology, and sophisticated computer-assisted risk 
assessment; not to mention the contributions of our fine 70 or 
more 4-legged customs officers out here, our Canine Corps, for 
the U.S. Customs Services.
    Another major component of our strategy within the Customs 
Service involves partnerships with other governmental and 
private interests on both sides of the border. These include 
certainly the U.S. Immigration and Naturalization Services, 
whose inspectors work side-by-side with us at the Ports of 
Entry.
    But it includes industry partnership programs, commercial 
importers, and ongoing coordination with trade groups, 
community chambers of commerce, and very importantly, agencies 
of the State of Arizona.
    Immediately following the terrorist attacks of September 
11th, Customs went to what we call a level one alert here and 
across the country. Level one requires a sustained, intensive, 
anti-terrorist initiative, and it includes the increased 
inspections of travelers and goods at every port of entry.
    We remain at level one alert today. Another consequence of 
level one is that Customs officers are guarding all ports of 
entry during the hours when they are normally closed.
    These activities under level one do not constitute new or 
unfamiliar work for Customs, but rather they are an 
intensification of what we already do, but with an emphasis on 
anti-terrorism rather than anti-smuggling.
    We believe the same knowledge of smuggling techniques and 
behavioral analysis that our officers have used so effectively 
against narco terrorists can be equally effective against this 
new threat.
    A good example of this is the interception of the 
terrorist, Ahmad Rassam, on our Northern border with Canada at 
the end of year 2000 by U.S. Customs inspectors working at Port 
Angelos.
    Certainly this change in focus is going to require a 
different degree of emphasis, and it is supported mainly on the 
Southwest border by a greater utilization of our existing 
resources.
    Currently in the Arizona Customs management center, our 
officers are working 41 percent more overtime on top of what 
was already a pretty substantial overtime requirement prior to 
the events of September 11th.
    Since September 11th, we have added 14 additional Customs 
officer positions, a 3.9 percent increase in resources, and the 
recent passage of emergency supplemental appropriations for 
counter-terrorism has provided additional resources, which 
project out to 20 additional positions for this CMC.
    We are very hopeful that this will allow us to reach a 
point where the current level of operations can be sustained 
indefinitely without negatively impacting officer 
effectiveness.
    In the trade processing arena, we are trying to do more to 
push our sphere of activities outward from U.S. point of entry 
to points of origin abroad. Our recently implemented Customs 
trade partnership against terrorism will do just that.
    In this program, we plan to work with importers in 
developing information, such as where their goods originated, 
the physical security and integrity of their foreign plants and 
suppliers, the background of their personnel, the means by 
which they transport goods, and those who they have chosen to 
transport their goods into the country.
    On a local level, we are certainly attempting to work out 
smarter or as smart as we can, and I would like to bring up one 
particular project that specifically deals with the trade 
arena.
    To better counter the narcotics threat and now the 
terrorist threat in the commercial environment, Arizona has 
implemented at our port in Nogales, which is our busiest 
commercial crossing, a project that we refer to as the Mariposa 
Cargo Redesign Project.
    This redesign, which involves the partnering with the State 
of Arizona to acquire additional land necessary for us to share 
with them and develop a commercial processing system, has 
greatly reduced traditional Southwest border processing times, 
but it has also increased Customs ability to screen for 
enforcement purposes.
    Essentially what we have done is to create an enforcement 
screening area of what used to be a static queuing line, and we 
decided that since the trucks were just waiting in line anyway 
that we could do something there while they were waiting.
    So using this system, every single truck, without 
exception, that enters the United States through the Nogales 
Mariposa Cargo Crossing is intensely screened. What this means 
is that this allowed us to move to level one inspections in the 
cargo arena in Nogales, our busiest trade port here, in a 
transparent manner to the trade.
    We were already conducting those intensified level one 
inspections prior to September 11th. In the passenger arena, we 
have implemented an enforcement command center concept, along 
with an operation that involves 203 cameras strategically 
placed throughout the border, throughout our border in Arizona.
    And we have developed, tested, and successfully implemented 
the Customs Automated Operations System, which allows us to 
systematically program various operations into the passenger 
processing environment, or alternately, it randomly selects 
various enforcement operations.
    This has proven to be very effective for us in providing a 
measure of uniformity. It has also been a force multiplier. It 
keeps our officers focused on the goal of the operation, while 
at the same time making us much less predictable to the 
smuggler or to the potential terrorist. We are very hopeful 
about future successes within this customs automated operation 
system implementation.
    In conclusion, Mr. Chairman, Mr. Kolbe, and Mr. Shadegg, I 
want to thank you for this opportunity to testify. The U.S. 
Customs Service will continue to make every effort possible, 
working with our fellow inspection agencies, with the 
administration, with congressional leaders, our Mexican 
counterparts, and the business community, to address your 
concerns and those of the American people.
    I would be very happy to answer any questions that you 
might have.
    [The prepared statement of Ms. De La Torre follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.019
    
    [GRAPHIC] [TIFF OMITTED] T4331.020
    
    [GRAPHIC] [TIFF OMITTED] T4331.021
    
    [GRAPHIC] [TIFF OMITTED] T4331.022
    
    [GRAPHIC] [TIFF OMITTED] T4331.023
    
    [GRAPHIC] [TIFF OMITTED] T4331.024
    
    [GRAPHIC] [TIFF OMITTED] T4331.025
    
    Mr. Souder. Thank you very much.
    Mr. Aguilar.
    Mr. Aguilar. Good morning. Chairman Sounder, Congressman 
Kolbe, and Congressman Shadegg, I am pleased to have the 
opportunity to appear before the subcommittee here today to 
speak to you about the Tucson Border Patrol sector's 
operations, and our law enforcement initiatives that are 
effectively addressing and impacting alien and drug smuggling, 
and counter-terrorism measures in Arizona.
    I would like to begin this morning by thanking you and your 
fellow Members of Congress for your diligent support of INS and 
the U.S. Border Patrol. The Tucson sector of the U.S. Border 
Patrol has an area of responsibility that covers 261 linear 
miles of Arizona's border with Mexico.
    This sector has eight border patrol stations located in 
four counties within the southern area of the State. The U.S. 
Border Patrol developed a border patrol strategy in 1994 as 
part of the overall INS effort to deter illegal immigration 
into our country.
    The principal goal of the border strategy is to effectively 
bring the border areas with the highest level of illegal 
crossings under manageable control. The foundation of the 
border control strategy is two-fold; to focus border patrol 
resources in targeted areas of operation in order to increase 
levels of border control in the areas of greatest need; and to 
increase the quality of life for people living and working 
along the border by reducing the level of crime in border 
communities.
    Arizona has three main areas that are used as illegal entry 
points or corridors into the United States. The three main 
corridors are identified as the Nogales corridor, the Douglas/
Naco corridor, and the West Desert corridor.
    The Nogales corridor originates in the United States at 
Nogales, AZ. Sonora, Mexico, is the Mexican city directly 
across the border from Nogales, AZ. Highway 19 is the main 
arterial highway leading into the United States from Nogales, 
AZ.
    There are several other peripheral roadways that lead away 
from Nogales. The Nogales and Sonora stations are responsible 
for this area of operations. The Douglas/Naco corridor 
originates at the cities of Douglas and Naco, AZ.
    Both of these cities and the surrounding areas are used by 
smugglers to facilitate the entry of illegal aliens into the 
United States. The main arterial highways leading away from the 
Douglas/Naco area of operations are Highway 191, Highway 80, 
82, and 90.
    The Douglas, Naco and Wilcox stations are responsible for 
this area of operations. The West Desert corridor encompasses 
the western-most portion of the Tucson sector, and this is a 
very desolate and harsh corridor that is the least used by 
smugglers and aliens.
    Aliens have to track long distances on foot in order to 
reach highways leading away from the border area. The Tucson, 
Casa Grande, and Ajo Stations, are responsible for these areas 
of operation.
    The strategic application of border patrol resources is 
essential. This is necessary in order for our operations to be 
effective by making it unfeasible for smugglers and aliens to 
utilize an area such as the Douglas-Naco corridor as a gateway 
to the interior of the United States.
    The forward deployment of our resources is essential to our 
operation, and is founded on an immediate border area 
deterrence-based approach. This includes the deployment of 
border patrol agents in high visibility positions, sensors, low 
light television cameras, barriers, lighting and other 
technology, all of which creates force multipliers.
    The Tucson sector operates a network of temporary traffic 
checkpoints, and when the smugglers and alien flow are driven 
out of the populated areas, they utilize the outlying areas as 
a means of reaching the main highways leading away from the 
border.
    The checkpoints provide a border patrol presence on those 
outlying roadways that deters the use of the roadways by 
smugglers. The checkpoints also enhance the Border Patrol's 
ability to police the entire expanse of the roadways. The 
Tucson sector ranch patrol operates in the Douglas/Naco area 
and concentrates on responding to ranchers and rural citizens 
that are experiencing incursions on their private property by 
aliens and alien smugglers.
    The Tucson sector also has instituted a disrupt unit that 
patrols the highways leading away from the areas experiencing 
increased smuggling and other criminal activity. The disrupt 
units' mission is to deny smugglers the use of open air staging 
areas that parallel the immediate border area.
    The function and supportive role to units on the immediate 
border and the ranch patrols have proven very successful. The 
key asset in all border patrol operations is the border patrol 
agent, and I am extremely proud of the men and women of the 
Tucson sector for their hard work, their diligence, and their 
fortitude.
    Operational strategy is founded on the agents' presence and 
operational response capabilities, and is directly linked to 
supporting enforcement infrastructure, which includes remote 
video surveillance camera systems, integrated surveillance 
intelligence systems, LORIS scopes, night vision goggles, 
sensors, all terrain vehicles, horse patrols, barriers, and 
other resources that complement and enhance agent's 
capabilities.
    Smugglers' continued efforts to bypass our border control 
strategy have resulted in smugglers adjusting their tactics, 
and guiding unsuspecting groups of aliens through desolate and 
sometimes treachious areas of Arizona.
    The Mexican Consulate has joined forces with us to produce 
public safety announcements to be aired in Mexico, and we have 
undertaken a very aggressive program of developing and 
publishing warning pamphlets distributed in Mexico.
    Signs have been posted on both sides of the border warning 
of the dangers of crossing in specific areas. When illegal 
crossings in dangerous areas do occur, the Tucson sector border 
patrol search trauma and rescue unit performs search and rescue 
operations, primarily in the West Desert corridor, 7 days a 
week, 24 hours a day, during the hot summer months. They 
performed 121 rescues last fiscal year alone.
    The achievements that we have reached. The Nogales 
corridor. Prior to implementing the border patrol strategy, the 
quality of life in downtown Nogales was deteriorating and crime 
was rampant. Our deterrence-based strategy was implemented n 
December 1998, and the results have been dramatic.
    The Nogales station apprehended 127,206 illegal aliens in 
fiscal year 1998. The station has experienced a steady decline 
in the number of apprehensions since 1998. In fiscal year 1999, 
the Nogales station apprehended 86,529 illegal aliens. In 
fiscal year 2000, 68,251. In fiscal year 2001, 58,262.
    As evidenced by these statistics, apprehensions in the 
downtown area have now dropped 54 percent, compared to 1998.
    The Douglas/Naco corridor. In fiscal year 1998, a total of 
178,134 illegal aliens were apprehended in the Douglas/Naco 
corridor. In fiscal year 1999, 266,285. At the onset of 
Operation Safeguard, the Tucson sector successfully employed 
the strategy of deterrence in the city of Douglas.
    Our incremental expansion since late 1999 in this area has 
brought management control to a large part of this area. This 
success was achieved with the aggressive and sustained forward 
deployment of personnel, along with cameras, sensors, and other 
equipment and technology on the immediate border area.
    As resources are directed to the Douglas/Naco corridor 
apprehensions have declined from 402,694 in fiscal year 2000, 
to 260,939 in fiscal year 2001. In conclusion, Mr. Chairman, 
the U.S. Border Patrol has had successes in San Diego, El Paso, 
and McAllen sectors.
    And I am now elated to include the Nogales corridor and the 
majority of the Douglas/Naco corridor in this listing as border 
control achievements. Arrests of illegal aliens throughout the 
Tucson sector are currently down by 52 percent as compared to 
last year.
    And the sector is at a 7 year low in arrests. I am 
confident that with our current strategy and with continued 
support that we will meet our objective of controlling the 
border.
    I thank the subcommittee for the opportunity to present 
this testimony, and I would be pleased to respond to any 
questions that the subcommittee may have. Thank you.
    [The prepared statement of Mr. Aguilar follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.026
    
    [GRAPHIC] [TIFF OMITTED] T4331.027
    
    [GRAPHIC] [TIFF OMITTED] T4331.028
    
    [GRAPHIC] [TIFF OMITTED] T4331.029
    
    [GRAPHIC] [TIFF OMITTED] T4331.030
    
    [GRAPHIC] [TIFF OMITTED] T4331.031
    
    [GRAPHIC] [TIFF OMITTED] T4331.032
    
    Mr. Souder. I thank each one of you for your testimony and 
if you can thank each of your agents in this region for the job 
that they do. It is often one that receives more criticism than 
thanks, but they are the front line of defense for the United 
States of America, and we appreciate what they do.
    And if you can communicate that to each one of them. I 
wanted to make sure that I get a couple of questions into the 
record. Clearly, while we have focused on the Northern border, 
there is an increasing signs that there is at least some 
activity of people of Middle Eastern descent coming across the 
Southern border.
    In the story regarding the ones the other day, there was 
the story that no one was able to communicate in their 
language. One of the things that we have been trying to look at 
in our border patrol, because we focus on speaking Spanish, how 
if a border patrol agent, or a customs agent, finds somebody 
who does not speak English or Spanish, what do you do?
    Do you feel that this is a frequent enough need that you 
can still deal with it in contracting out, or do we need to 
focus more on language? What we have heard from agents in the 
field, for example, on the Quebec border, that the State 
Department standards on speaking French mean that people who 
spoke French all their life could not pass the test.
    That we need some kind of a standard that is more 
functional, rather than you are going to be working in an 
embassy and dealing in a more formal basis, what could we do if 
you first feel there is a need, and how do you deal with it, 
and what could we do to make sure that we have some agents in 
each sector with more flexibility, not only for Middle Eastern, 
but Asian.
    Mr. Aguilar. Let me begin, sir. Within the Border Patrol, 
any time we apprehend a person that does not speak either 
English or Spanish, one of the first things that we look at is 
we basically maintain skills inventories within our sectors, 
our areas of operation, so that we can identify any officers 
that might speak a language that we are looking for.
    In addition to that--and that is the first step that we 
take, of course, is to take a look at internally what we have 
got. In addition to that, we have access 24 hours a day, 7 days 
a week, to what we refer to as an interpreter pool.
    By means of telephone communications that is contracted 
out, we reach out by means of telephone to start the 
interpretation process. We also reach out to other law 
enforcement agencies, such as the FBI, the DEA, for assistance 
in those cases that it is needed.
    At this point in time, we have an effective system in place 
where we can communicate, and one of the most useful tools, of 
course, is the internal communications skills within our 
diverse population of agents if you will.
    Mr. Souder. Do you have anybody who can speak Farsi or 
Arabic in your 500 personnel?
    Mr. Aguilar. I can't speak to those specifically, sir. I 
know that in other areas that I have worked we have had those 
capabilities.
    Mr. Souder. Have you contracted out, and have you utilized 
a contracted out since you have been in this zone?
    Mr. Aguilar. Yes. The agents in the field have, yes, sir.
    Mr. Souder. Ms. De La Torre.
    Ms. De La Torre. Principally the language that we encounter 
is Spanish, and it is rare that we would encounter a language 
requirement that we are not able to meet, and that is because 
we are dealing with ports of entry, and mostly legal crossings.
    But Customs does have a 24 hour command center based in 
Washington specifically for the terrorist threat, and to 
receive intelligence, to analyze, to translate. So what we 
would do in that eventuality should we encounter someone from a 
country whose language we could not speak--Middle Eastern--we 
would immediately notify our 24-hour command center for that 
kind of translation.
    But in that we normally deal with the legitimate traveling 
trade in public, we have not seen that need or seen a need to 
contract any kind of special services yet.
    Mr. Souder. Thank you. Could you also tell me how many of 
the six crossings are not open 24 hours?
    Ms. De La Torre. Our crossing at--of those 6 crossings, 3 
of them--well, let's say 2\1/2\, are not open 24 hours. The 
Port of Lukeville is open from 6 a.m. to midnight.
    We are now guarding it from 12 to 6 in the morning. The 
Port of Sasabe is open from 8 a.m. to 8 p.m., and we are now 
posting customs inspectors from 8 p.m. to 8 a.m.
    And then within the Nogales Port of Entry, there are 
actually several crossings in that Port of Entry, and the 
Mariposa passenger crossing closes at 10 o'clock at night, and 
opens at 6 in the morning.
    These are based on traffic requirements as we see them, but 
now once again we are guarding that port of entry during the 
closed hours.
    Mr. Souder. Are you looking at doing--is Yuma the next 
largest port of entry for commercial traffic?
    Ms. De La Torre. Yes, it is.
    Mr. Souder. Are you looking at a system similar to what you 
did? Is that the next focus?
    Ms. De La Torre. We certainly are. We have a tremendous 
infrastructure, and facility problems in our San Luis crossing 
right now. It has really outgrown that old facility.
    There has been a Presidential permit approved to create a 
new commercial crossing east of San Luis, and we are very 
optimistic about how that will change things for us, but we 
have really outgrown that facility.
    Mr. Souder. How many rail crossings are there?
    Ms. De La Torre. We have one rail crossing at the Port of 
Nogales.
    Mr. Souder. And you said that you are basically right now 
able to see all the trucks. What about the trains?
    Ms. De La Torre. Well, I am very pleased to say also that 
just in the past month we have been able to install a rail VAC, 
a gamma ray system, which will examine and give us images of 
the contents of all rail cars both going into the country and 
out of the country.
    We have had it completed and ready for inbound traffic 
about 2 months ago, and as of about 2 weeks ago, we are now 
able to also get images of the rail cars going southbound as 
well.
    Mr. Souder. Mr. Kolbe.
    Mr. Kolbe. Thank you very much, Mr. Chairman. Mr. Aguilar, 
let me begin with a subject that has been a contentious point 
for some time between the Border Patrol and myself, and some 
others, about checkpoints. And I would just like to get this 
out of the way.
    We just have I think a philosophical difference. My view is 
that roving checkpoints, and checkpoints that move from--that 
are temporarily moved from one location to the other have got 
to be more effective than stationing someone permanently in one 
location.
    And we don't say to the Sierra Vista Police that we will 
put a person at the corner of the bypass and Frye Boulevard, 
and we will just stop all criminals there, and we won't have 
anybody anywhere else. We have moved people around, and we have 
law enforcement that is flexible and that moves.
    And I just want to begin by asking you whether you are 
aware about the language that is in the Appropriation Acts for 
1999, 2000, and 2001, and 2002, which prohibits the INS from 
having permanent checkpoints?
    Mr. Aguilar. Yes, sir, I am familiar with that.
    Mr. Kolbe. OK. Are you aware that the current fiscal law 
this time defines what permanent means? That is, not operating 
in the same location for 7 consecutive days during a 14 day 
period?
    Are you aware of that, and if so, when did you become aware 
of that?
    Mr. Aguilar. Yes, sir, we became aware of that shortly 
after the budget was passed. As an organization, we are very 
sensitive to the appropriations language, and I understand that 
the Commissioner is going to be meeting with key Members of 
Congress next week in order to discuss those very issues.
    It is my understanding that the current checkpoint 
operations do not violate the congressional law. As a Federal 
law enforcement officer, I am keenly aware of the 
responsibilities to protect the American people, especially in 
light of the recent terrorist acts and the requirements of the 
Border Patrol to operate at National Threat level one 
conditions.
    The INS, the Tucson Sector, and the Border Patrol, is in 
full compliance with the congressional language which prohibits 
the use of appropriated funds to construct or operate any 
permanent traffic checkpoints within the Tucson sector.
    There have been no funds expended by INS to the Tucson 
sector to establish permanent checkpoints within the Tucson 
Border Patrol Sector. Now, in light of the September 11th 
situation that we faced, the Border Patrol feels that it is in 
the best interests of U.S. national security and the American 
people to be vigilant and to operate the temporary checkpoints 
in a manner that provides the highest level of Border Patrol 
enforcement defense against illegal entry of persons coming 
into the United States.
    Mr. Kolbe. Well, it is my understanding that the checkpoint 
at North Tubac was in the same location from September 10th of 
last year until January 18th of this year, with 1 day, December 
23rd, the day before Christmas, that it wasn't open.
    The law was enacted on November 28th, and signed into law 
at that time. Is it your view that you were complying with the 
law with that?
    Mr. Aguilar. Yes, sir. The headquarters office of INS is in 
communication and dialog with the congressional units in order 
to ensure that we are in fact in line with the appropriations 
language.
    When the September 11th events occurred, the checkpoints 
had been down for in fact a number of months. The most active 
checkpoint at that point in time had been the Highway 19 
checkpoint going on and off.
    On any given day when the checkpoint at Highway 19, and I 
am speaking of Highway 19 specifically now, it goes down during 
the day, and for several parts of the day, because of the 
traffic flow.
    That is one of the means that we keep that temporary 
checkpoint going. We also move it from location to location and 
not on a monthly basis, but basically we respond to the 
community.
    For example, when Tubac has their arts festival, we respond 
to the community by moving that also. September 11th, 
nationwide, all the checkpoints across the Southwest border 
went into a threat one level, and have been maintained since.
    One of the sensitivities that we had at that time was in 
fact the appropriations language. We immediately went out for 
guidance on that, and we were told that the dialog was ongoing, 
and that we were in compliance.
    Mr. Kolbe. Perhaps I will have to have that discussion at 
the Washington level, but I can't see--I mean, there may be a 
reason for changing, and if they can convince it is changing, 
fine.
    But I don't see how you can say keeping it open 
continuously is in compliance. And now you have just moved as I 
understand it 10 miles down the road, this checkpoint?
    Mr. Aguilar. Yes, sir.
    Mr. Kolbe. What capabilities do you have at these 
checkpoints? Do you have access to the Customs, and the State 
of Arizona for stolen cars and vehicles, registration, etc?
    Mr. Aguilar. No, sir, we do not have any ADP capability 
because of lack of infrastructure. We have not been able to 
construct that kind of capability, again because some of the 
budget limitations that we have.
    We cannot run, for example, NCIC checks, Arizona Criminal 
Index Checks. We cannot process----
    Mr. Kolbe. None of that can be done wireless?
    Mr. Aguilar. I'm sorry?
    Mr. Kolbe. None of that can be done by wireless 
communications?
    Mr. Aguilar. No, sir, we do not have that capability right 
now.
    Mr. Kolbe. You do not have that capability?
    Mr. Aguilar. Within the INS, we do not have that 
capability.
    Mr. Kolbe. You don't have wireless capability now?
    Mr. Aguilar. No.
    Mr. Kolbe. And is that all available at, for example, the 
checkpoint north of San Diego? Every vehicle is checked for 
stolen registration?
    Mr. Aguilar. They have the capability to conduct those 
kinds of checks because they are hardwired to that kind of 
capability.
    Mr. Kolbe. So every vehicle is checked?
    Mr. Aguilar. At that specific checkpoint? I believe so, 
yes.
    Mr. Kolbe. That is pretty astonishing that you don't have 
wireless capability. I mean, you have got people moving around 
throughout the whole district, and not to have wireless 
capability is really astonishing.
    Mr. Chairman, I will come back if I might with some other 
questions on the hospitals, and also I have some for Ms. De La 
Torre, if I might on the second round.
    Mr. Souder. And in our discussions yesterday when we 
visited one of the checkpoints and we also went through another 
one, or by another one, that it is clear that if they don't 
become permanent checkpoints, it is clear that if we don't have 
checkpoints, we have to look rapidly at how to get the wireless 
capacity and the information capacity.
    It is impossible to do adequate functioning without being 
able to do proper background checks. One way or another that 
has to be an appropriations priority, because they either have 
to get hardwired, or they have to have the other, because 
intelligence is clearly the most important thing on the 
terrorism part.
    It is probably among the most important things in 
narcotics, and also in illegal immigration. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Le me begin with a 
clarifying question, because we did visit one of your 
checkpoints yesterday, and did understand from you then that 
you do not have wireless data capability.
    You do have wireless voice capability, and you could run a 
license plate check by voice from one of those could you not?
    Mr. Aguilar. Yes, sir, and in fact that is the way that we 
operate right now. If in fact there is a need for our officers 
to run a license plate, we then radio in to our base stations, 
our stations.
    And then they in fact start running it through the 
capabilities that we have there, or we make contact with the 
appropriate law enforcement agency to run those checks.
    Mr. Shadegg. What you don't have is wireless data 
capability. You can't type into a computer certain information 
and have it come right back to that computer?
    Mr. Aguilar. Right. Yes, sir.
    Mr. Souder. Is the phone secure?
    Mr. Aguilar. No. The phone is not secure, and we 
communicate by means of cell phone, because we do not have the 
capability to hardwire in there because of spending 
constraints.
    Mr. Shadegg. You have no hardwire phone. You have cell 
phone and radio; is that right?
    Mr. Aguilar. At the checkpoint that you went to yesterday, 
that is correct.
    Mr. Shadegg. At the checkpoint on I-19 do you have a 
hardwire phone?
    Mr. Aguilar. No.
    Mr. Shadegg. So there again you communicate by cell phone?
    Mr. Aguilar. By cell phone, yes.
    Mr. Shadegg. Or Border Patrol radio?
    Mr. Aguilar. Or Border Patrol radio, yes, sir.
    Mr. Shadegg. I want to walk through your testimony just 
through a couple of points. On page 4, you say or your focus on 
the importance of your agents. I want to know how many agents 
you have now, and whether that is an increase or a decrease, 
and how much of a increase or decrease, and how much of an 
increase or decrease you expect over the next 2 years?
    Mr. Aguilar. Right now, sir, the authorized levels at the 
Tucson sector, and this is the entire sector within the eight 
stations, my table of organization, authorized level, is 1,611 
officers.
    At this current point in time as we speak, I actually have 
1,638 officers on board. So we are actually a little over.
    Mr. Shadegg. And how far is that up or down from where you 
were a year or 2 years ago?
    Mr. Aguilar. Well, in fact, I can give you the exact 
enhancements, sir. During fiscal year 2001, we got 70 
enhancements; and during fiscal year 2002, we got 60. I'm 
sorry, 90 are coming this year, but we have not gotten them 
yet. Those are the enhancements that have just been announced 
into the sector.
    Mr. Shadegg. OK. How many do you expect in the--I mean, you 
expect 90 next year, or 90 this year?
    Mr. Aguilar. Yes, 90 this year, fiscal year 2002.
    Mr. Shadegg. And you have no idea beyond that?
    Mr. Aguilar. No. No, sir.
    Mr. Shadegg. And on page five of your testimony, you talk 
about he warnings to illegal immigrants as they cross. Yet, I 
understand there are many areas of the border that are not 
fenced at all, and many areas where there are no signs; is that 
correct?
    Mr. Aguilar. There are many areas that are not fenced or 
have minimal fencing, basically some of which you saw last 
night, the barbed wire fencing, which of course is not going to 
be a real barrier to anybody who is intent on crossing.
    There are some areas that we are extending and expanding 
our signage efforts out there to warn of the dangers associated 
with that also, yes.
    Mr. Shadegg. So those signs would only be in a few areas, 
and they would only be in areas where you have reason to 
believe that people have crossed in the past?
    Mr. Aguilar. We have reason to believe that people crossed 
in the past, and we also have a very effective liaison 
mechanism with our counterparts on the Mexican side, whereby we 
are also able to preempt some of these signages requirements, 
because we are being told that people are going at a certain 
direction.
    Our intelligence systems come into play and things of this 
nature, yes, sir.
    Mr. Shadegg. Your testimony stresses the fact that there is 
a downturn in arrests, and Mr. Kolbe in his opening statement 
raised the question of why is that, and I think that is an open 
question that nobody quite knows the answer.
    Some people are encouraged by that fact, and some people 
are discouraged. I want to first focus on statistics for other 
than Mexicans. Going at the issue of this terrorism question. 
Do you keep statistics on arrests of other than Mexican, and 
are those going up or down?
    Mr. Aguilar. Yes, sir, we do keep statistics on OTMs, Other 
than Mexicans, and at the present time this sector, as of 
February 18th, and this is in the data that I brought with me, 
in the area of OTM specifically, we are down by 4 percent as a 
sector.
    Mr. Shadegg. From when to when?
    Mr. Aguilar. As compared to last year? Raw numbers, sir, if 
you are interested in those, are basically at the same time 
period last year, through February 18th, we had 1,111 
apprehensions of other than Mexicans.
    Through the 18th of this year, we had 1,070. Now, within 
that group, I have some further, if you are interested, 
specifics, from Middle Eastern countries. And since the 
beginning of the fiscal year, we have had 45 apprehensions of 
nationals from Middle Eastern countries.
    After September 11th, we had a total of 12 from those 
Middle Eastern countries within the sector.
    Mr. Shadegg. If the overall reduction in other than 
Mexicans is 4 percent, how does that compare to the overall 
reduction in total? I believe the reduction was much more 
dramatic than that.
    Mr. Aguilar. Yes, sir. The make-up of the OTM population 
into this sector has always been low. The make-up--and this is 
an estimate because I don't have that figure with me--has 
always been between 3 and 8 percent historically.
    Now as we speak today, through the 18th of February, the 
sector in its entirety is down by 52 percent in the total 
number of arrests. The heaviest traffic area that we have had 
over the last couple of years has been the Douglas and the Naco 
area of operations.
    Within those two specific areas, Douglas is down by 65 
percent, and Naco is down by 59 percent through the 18th of 
February.
    Mr. Shadegg. My time has expired for the first round now. I 
have some more questions and I will get to them in the second 
round.
    Mr. Souder. Ms. De La Torre, how many additional customs 
inspectors or agents do you feel you need to increase the 
pressure and success rate in all parts of the Arizona sector?
    Ms. De La Torre. Well, certainly resource needs are not 
unique to Arizona, and I believe that the Customs Service is 
quite concerned about the threat on the Northern border right 
now.
    Customs, nationwide, has received 840 new inspector 
positions based on this emergency appropriation from Congress. 
We know that right now we are going to begin--we will receive 
at least 20, and I think that the majority will likely go to 
the Northern border.
    But we do understand that we will be receiving in 
incremental levels additional inspector positions throughout 
the year. I can just tell you that we are grateful to get two, 
and we are grateful to get 20, and we are grateful to get 200. 
And whatever we do receive thought we certainly try to get the 
most bang for the buck out of.
    Mr. Souder. Have your drug arrests gone up since September 
11th or down?
    Ms. De La Torre. Actually, they have gone up. Now, after 
September 11th, we had a decrease in traffic, and we had a 
decrease in narcotics smuggling as well. Coincidentally, after 
the 10 days of mourning, and when the flags went back up, 
smugglers began to come back across the border.
    And what we have seen happening is that we have even deeper 
concealment in our narcotics loads that are coming in now, 
because the inspections are so intensified. We have always seen 
narcotics being smuggled in gas tanks and spare tires, and 
typical vehicle smuggling.
    But now we see them in intake manifolds, and brake drums, 
four-wheel drive differentials, drive shafts. We are seeing 
very, very deep concealment of heroin and cocaine, which is 
very time consuming to extract.
    We have had to remove windshields to get into the air bag 
compartments and dash boards to be able to extricate narcotics. 
And you have to do this very carefully, especially if you are 
trying to preserve evidence for prosecutions.
    So that is how we have seen the nature of the narcotics 
smuggling change, that deep concealment, which is very time 
consuming certainly for the officers.
    Mr. Souder. The people who you are arresting for smuggling 
illegal narcotics, are they a different group then the 
immigrant group? Are they American citizens, or are they non-
citizens? What kind of patterns do you see?
    Ms. De La Torre. Sir, I will tell you that we see all types 
of people from every country, every age, every economic status, 
smuggling. We have seen American citizens, Mexican citizens, 
Mexican citizens who are legally in this country, and all 
types, still smuggling narcotics.
    Mr. Souder. Has there been any differences in the large 
loads as opposed to a smaller load?
    Ms. De La Torre. Well, the larger loads certainly are 
coming in through major organizations, and the larger cocaine 
loads are coming in through the cargo environment. That is why 
our enforcement screening area of that cargo lot is so 
critical. That's where we have our gauntlet of dogs, of metal 
detectors, of inspectors standing on ladders, and people 
tapping things to see if it sounds the same. That's why that is 
so critical.
    Mr. Souder. Are any of those coming through pre-cleared 
vehicles or frequent vehicles?
    Ms. De La Torre. Well, through frequent crossers? Oh, 
certainly. Certainly.
    Mr. Souder. Because we are trying to address how we can 
accelerate the commerce, but yet what we are hearing is that 
some of the loads are coming through those, and so one way to 
address that might be to double the penalties if you abuse your 
frequency, because they were trying to make it easier for 
Commerce, and people who abuse that should pay a higher penalty 
because they are in effect bringing the whole system down.
    Ms. De La Torre. And I'm sorry for not being clear. I was 
speaking about frequent crossers in the passenger vehicle 
arena. These are frequent crossers every day.
    Mr. Souder. I was referring to the commercial path side.
    Ms. De La Torre. Well, in the commercial environment, what 
we have had to do is differentiate between the importer and the 
carrier, because an importer can actually legally put a 
legitimate load of merchandise on and then the carrier, the 
truck, though, has a false compartment with legitimate 
merchandise on it, we have to then determine who was at fault.
    We don't want to seize the truck and the merchandise if the 
importer and the shipper had no idea. So that is our challenge 
then; who was at fault, and who know, and who put it in.
    That's why these security agreements in the trade 
partnership will be so important.
    Mr. Souder. One of the things that we clearly need to put 
pressure on, however, are the shippers and others to help us 
with the accountability beforehand.
    Ms. De La Torre. Yes.
    Mr. Souder. Mr. Aguilar, let me ask this as a compound 
question so you can address it in one breath. How many agents 
approximately have you lost to sky marshals and other programs 
since September 11th; and has the retention problem become 
greater; and approximately how many applications do you have to 
receive in order to complete a hire?
    Mr. Aguilar. Currently, sir, the sector for the entire last 
year had an attrition of 12.8 percent. That is relative to the 
1,611 that I quoted earlier. As we speak now, through the month 
of February, since September, we have had 25 actual officers 
leave for the Air Marshals Program.
    There are others that we are aware of that are in the 
application process if you will. I don't know at what point 
they will be picked up or if they will be picked up. But at the 
present time we have lost 25.
    The attrition rate again is 12.8. The second part of your 
question, I am going to speak to the national recruiting 
numbers, because I don't have them specifically for the Tucson 
sector, because as you know, the hiring occurs at the 
headquarters level through headquarters INS and OPM.
    But for us to get the needed people to net the people that 
we need this next year, we are figuring--and this is the Border 
Patrol as a whole--that there will be a need to put at a 
minimum approximately 2,000 officers through our Border Patrol 
academies in order to net the attrition that is attrited, and 
the enhancements that we are getting.
    Mr. Souder. And how many applicants do you need to get to 
the 2,000 at the academy?
    Mr. Aguilar. That varies significantly based on several 
things that happen with our economy and things of this nature. 
The competition that we have with other agencies, and the Sky 
Marshals is a new dynamic that has been added this time around.
    I can give you numbers that I am familiar with, and these 
are not exact numbers. But a year ago we were approximating as 
an organization that we needed to actually go out and recruit 
and basically touch 18,000 applicants in order to net new the 
people that we actually got as an end product out of our 
academies in order to get us at the attrition, plus the 
enhancements.
    Mr. Kolbe. Could you yield for just one question?
    Mr. Souder. Yes, I'm yielding.
    Mr. Kolbe. Just on that point, that 12.8 percent is total 
attrition, and that's not just for the Sky Marshal Program, but 
for your total attrition?
    Mr. Aguilar. Yes, that's right, that's the total.
    Mr. Kolbe. And that is of your uniformed officers?
    Mr. Aguilar. That is specific to our officer corps, yes.
    Mr. Souder. And that generally speaking, what we have seen 
is a higher attrition rate post-September 11th. Mr. Ziegler 
came to us in Congress, particularly in the first 3 months, and 
said that he was losing agents on a national basis faster than 
adding them, even though we had just boosted up the funding.
    Now, hopefully in a negative--hopefully is the wrong word 
to use here. The economy softening may be helping this process, 
but it is a problem that we have when we suddenly wrap up, and 
we often rob Peter to pay Paul.
    Mr. Souder. And if I could ask one followup. Where do your 
Border Patrol agents generally come from, in the sense of what 
were they previously doing and were they doing previous law 
enforcement? Where do you recruit from?
    Mr. Aguilar. It is a very diverse population, because we 
recruit throughout the United States. We concentrate our 
recruiting efforts throughout the United States, but we also go 
to colleges, for example; recent graduates, and military 
people, and people who are exiting the military, and things of 
this nature.
    We have a system that basically credits people with life 
experiences one way and for them to bring experience to the 
job. We have a lot of ex-military, and ex-law enforcement 
people, police officers, fire fighters, and things of this 
nature.
    We also recruit straight out of the colleges with a 2 or 4 
year degree that come into the service. So it is a varied 
background.
    Mr. Souder. Thank you. Mr. Kolbe.
    Mr. Kolbe. Thank you again, Mr. Chairman. Ms. De La Torre, 
let me begin by asking you on this technology issue, and this 
kind of follows up on what we were talking about with Mr. 
Aguilar.
    But even before September 11th, I think the Customs 
Service, particular here in Arizona, has been leading the way 
with some of the most modern and advanced surveillance systems 
to improve security on our borders.
    You have been working with New Technology Management, 
Incorporated, which is a local company, on a lot of new and 
interesting technology projects.
    You mentioned BACAS 2, and that also has the wireless tech 
system, and CAOS, and I am not sure if I remember what that 
stands for. But it is a reference for Customs inspectors, I 
guess.
    And then weapons of mass destruction, and a land border 
vehicle targeting system, a JPS kind of system. First of all, 
do you have the capability to do the kind of wireless data that 
we were talking about a moment ago?
    Ms. De La Torre. Yes, we do have a national wireless 
project in place in Customs, and the wireless part was not so 
difficult, but the secure wireless part was the difficult part.
    Mr. Kolbe. And that was my next question. Is it secure?
    Ms. De La Torre. Yes, and we have been able to overcome 
that hurdle to achieve secure wireless transmissions. What we 
like to do is have our officers mobile and walking around with 
the Port of Entry to be able to input data, and query things 
without having to go back to a fixed terminal. So we are very 
pleased with that.
    Mr. Kolbe. How does Customs just in a general way, and this 
is a philosophical question, but how do you balance your 
resources between enhanced technology, the newest kinds of 
technology, versus personnel?
    I mean, what would you say your philosophy is in this 
region here? If you have another dollar where would you like to 
see it go? To new technology or do you think it is better for 
personnel; one or the other?
    Ms. De La Torre. Oh, gee. If I could put 50 cents to both, 
that would certainly be wonderful. But I can tell you that 
sometimes technology is much easier to come by than personnel, 
and the answer to every problem isn't always putting more 
people at it.
    Sometimes we just have to work a little smarter, at least 
in that port of entry environment. So what we found is that 
these technologies that we put in place, our elaborate 
surveillance camera system, which is really off the shelf 
technology, but it is state-of-the-art.
    And the camera system, and the automated operations system, 
our ability to score and target land border vehicles, all of 
that put us in such a good position after September 11th, 
because although we had not planned for a terrorist attack, 
when September 11th happen, we were in an excellent position to 
have complete surveillance, live video, from all of our ports 
of entry right away.
    We were able to determine and direct anti-terrorist 
operations in a split second through our CAOS. We call it the 
CAOS system, through our automated operations system. So it has 
been so valuable that I just don't know what we would do if it 
was ever taken away from us.
    It has just really been incredible and a real force 
multiplier.
    Mr. Kolbe. Well, technology obviously can allow you to 
expand your resources, and to stretch the personnel out a lot 
further. I mean, if you suspect a vehicle has contraband, and 
you take it apart piece by piece; whereas, if you have got the 
technology to look at it, and you know exactly where you are 
looking, you can stretch your resources a lot further.
    Ms. De La Torre. Absolutely, and imagine that benefit in 
the cargo environment, and when an inspector might be 
suspicious, and then to dismantle and take out pallet of 
tomatoes would take so much time.
    But to turn it through a truck x-ray, or gamma ray system, 
an officer immediately knows if really the truck is OK, and 
they can go right down the road. So that takes minutes, as 
opposed to hours, and maybe all day.
    Mr. Kolbe. Mr. Aguilar, I want to ask one last question, 
and I don't want to dwell any longer on the checkpoints, but I 
want to give you an opportunity. Commissioner Ziegler has said 
that he is going to ask Congress for permanent checkpoints.
    I don't know whether that is your philosophy also as well 
personally, but from your own standpoint can you tell me if in 
your view it is, why do you think a permanent checkpoint is a 
better law enforcement tool than a roving or moveable 
checkpoint.
    Mr. Aguilar. Yes, sir. When we speak about checkpoints, 
Congressman--and in fact the group that was with us last night, 
we gave a full briefing and presentation on this.
    But when it comes to checkpoints, there are several 
parameters that we have to deal with. One of the most important 
ones, or two of the most important ones are the safety to the 
traveling public, and the legal parameters that the Supreme 
Court and Appellate Courts have placed upon us in order to 
conduct those checkpoints.
    In addition to that, we have the States that we deal with 
that require us to basically manage the checkpoints adequately. 
Now, the reason that I say this is the following, because 
permanent checkpoint as defined by the law not only give us the 
capability to check and inspect the vehicles, but they also 
give us the added parameters that facilitate the traffic flow, 
and that make it easier for the traffic to flow through.
    And that also facilitates the economy of the areas that are 
impacted if you will, such as Nogales, Agua Prieta, Douglas, 
and those areas. And it gives us the added inspection 
capabilities.
    Having all the technology present that is required to 
conduct an effective and efficient inspection of the vehicle 
actually translates the facilitation of that traffic, but 
impacting upon the criminal aliens, or criminal subjects 
ability to conduct their criminal activities.
    At the present time the Supreme Court mandates that if we 
move a checkpoint from one location to another that is 
considered a roving patrol type checkpoint. Under the court 
cases--and I will quote some of these court cases, Vascas 
Guerrero, for example. This is a Supreme Court case.
    It specifically states, ``that when a checkpoint is in 
operation, it is always located at the same site.'' The 
permanence requirement refers not to the duration of the 
checkpoint, but to its location.
    When the courts translate a checkpoint to a roving patrol 
checkpoint, the intrusiveness of our operations is elevated due 
to the officer's need to be able to articulate and pinpoint 
they are in fact stopping this vehicle and not this other one.
    Whereas, at a present checkpoint, as defined by the Supreme 
Court and Appellate Court cases, we have the abilities to 
inspect every vehicle that goes through there, and of course 
inspecting every vehicle requires what Customs and we have at 
our permanent checkpoint locations, all the technology, all the 
equipment, all the record checks capabilities, all the 
processing, detention capabilities.
    For example, our temporary locations right now, we do not 
have segregation capabilities for criminal aliens, for 
criminals, for juveniles, for females, and males.
    So they are ineffective and inefficient because we need to 
employ Border Patrol Agents to immediately respond, and take 
those people from there, and transport them back to the border 
in order to do what we should have been able to do at the 
checkpoint.
    Mr. Kolbe. Thank you. I think I am correct in saying that 
never before have I heard the issue of the Supreme Court cases 
raised as the argument for it, and so this is a new line that I 
think we are hearing today, but we will take this up in more 
detail with Mr. Ziegler.
    Mr. Chairman, my time has expired again. Will I have an 
opportunity to ask one more set of questions on health care?
    Mr. Souder. OK. I will yield to John.
    Mr. Shadegg. I have some questions about the checkpoints, 
but I will not focus on them right now. Hopefully I can get 
those answers later. Ms. De La Torre, how much of your effort 
is expended--and this rises out of an answer that you gave to a 
question from the chairman--trying to discern whether the 
trucker or the shipper is responsible, or--well, what did you 
say, the transporter or the shipper.
    That is, the agent that put the load on the truck, or the 
person or company moving the truck. How much of your time has 
been dedicated to trying to figure out how much is responsible 
as you just said?
    Ms. De La Torre. Well, quite a bit. It is very important, 
and it doesn't often take or always take a great deal of time. 
Sometimes it depends upon where the narcotics are concealed. 
For example, if it is a load of merchandise and it is in the 
boxes of merchandise, and we have seen that, then we strongly 
suspect the importer.
    But what we frequently see is modifications made to 18-
wheelers. Now if the company----
    Mr. Shadegg. I have a limited amount of time, and you have 
answered my question. I just want to tell you that I am stunned 
by your testimony and stunned by what you just said right now.
    And I want to get to the bottom of this, Mr. Chairman. 
American law--our RICO law, for example--makes it very clear 
that if an innocent citizen is driving a car that had drugs in 
it, we can take that car and punish both the citizen who was 
driving it and claimed he or she didn't know that there were 
drugs in the car.
    And indeed if I borrow a car from someone else, and I use 
that car to smuggle drugs unbeknownst to the individual, our 
RICO laws say we can take that car, even though I borrowed your 
car and you knew nothing about it.
    Mr. Souder. That is a question they ask you at airports.
    Mr. Shadegg. Yes. It is insane to me that we would not be 
saying very vigorously and very aggressively that we don't care 
if it was the shipper or the agent that put the load on the 
truck.
    It if it the guy who owns the truck, or if it is the 
company that put the load of cargo on the truck, we ought to be 
punishing them both, and forfeiting them from both, and so that 
we create an incentive for that shipper to say to the trucker, 
or the agent, the import agent to say to the trucker, you had 
better have a clean truck, or I am going to lose my load.
    And for the trucker to say to the individual shipping the 
load, you better be giving me a clean load, or I am going to 
lose my truck. And we ought to be creating a situation where 
they buy insurance policies on each of them so that if one gets 
nailed to the other, let them sort it out.
    If an importer is using a company that is also allowing 
their trucks to be used for illegal drugs, that importer ought 
to suffer the loss, and vice versa, and I am just stunned, 
because we have innocent civilians not in the commercial 
activity that we are punishing that way.
    And for us not to punish a commercial importer who used a 
trucker that had stuff hidden in the brake drums. So I do want 
to get to the bottom of that. That is incredible.
    Mr. Aguilar, I want to try to focus on this issue. You say 
with some pride that in your tenure here that the number of 
arrests are going down, and you believe that is deterring or is 
reflective of the fact that we are succeeding.
    And I think your philosophy as you explained it yesterday 
was gain control, and either maintain or retain control, and 
then expand control.
    Mr. Aguilar. Yes, sir.
    Mr. Shadegg. And the numbers show, the final summary 
numbers that you have given us, showed 402,694 in fiscal year 
2000; down to 260,939 in fiscal year 2001. But the fundamental 
question is for the people that have contacted my office, and 
many, many do all the time, saying they are still overrunning 
my property.
    And they are still leaving trash on my property, and they 
are still leaving feces on my property. They are still cutting 
my fences, and they are still destroying my land. The value of 
my property is still gone.
    How can you substantiate whether this is fewer crossings or 
simply fewer caught, No. 1. And, No. 2, do you think a more 
than a quarter of a million people per year is sustainable, 
because 260,939 is more than a quarter of a million people 
still crossing in a year.
    And then, third, have we regained control, and are we just 
retaining, or have we not yet gained control, and what do you 
mean if we haven't gained control yet, what do you need in 
terms of resources to gain control?
    Because I have to tell you that I don't think we have 
gained control.
    Mr. Aguilar. The terms that I used last night, Congressman 
Shadegg, were gain, maintain, and expand. In the areas that we 
are fully deployed within the Arizona border, 261 linear miles 
of it, we are gauging our successes.
    First, I will go into the tangible gauging, and that is the 
actual arrests that we make out there, but the way that I put 
it, the arrests are but one variable, one factor, within the 
entire equation that we have looked at in the gauging effort.
    The arrests we take into account, and we take into account 
what the community is telling us out there. We have forms, G-
123 Forms, where we are maintaining records of every phone call 
that comes into our station that tells us we have got people on 
our property, and we respond out there. And those have shown a 
tremendous decline, and that is another one.
    Mr. Shadegg. The number of calls coming in saying people 
are on our property?
    Mr. Aguilar. Yes, sir. We keep those records very closely, 
because that again helps us gauge. We talk to the hospital 
communities, the medical communities, and what is happening, 
and what are you seeing out there. We are seeing some of that.
    Some of these intangibles are a part of those equations 
that we buildup in order to get the final product that tells us 
that in fact things are declining. Now, one of the issues that 
you talk about are those areas where you getting the calls.
    What we see in the criminal activity is that they do shift 
to the efforts of law enforcement, as with any police officer. 
We apply law enforcement resources. The criminal alien is not 
going to stop, or the criminal is not going to stop. They are 
going to force shift and try and get around those enforcement 
efforts.
    When that happens, unfortunately what happens is that the 
crime shifts also, and this is not to say that we don't try to 
take preemptive actions or that we address those actions when 
they are occurring.
    For example, I quoted the ranch patrols out here. We have 
members in the audience I know that are the beneficiaries of 
the ranch patrol specifically in the remote areas, and the 
rural areas, where we deploy our officers specifically to 
patrol those areas, and be immediately responsive to the 
concerns out there.
    The term that I use when I speak to gain is management 
control. I stated last night that I am just like any chief of 
police. Any chief of police is working toward zero murders, 
zero shoplifters, zero burglaries, zero stolen cars.
    Is he going to get there? The answer is probably not, but 
that is what we have to continue to work toward. It is that end 
product that we are shooting for on a constant basis. That is 
the expansion process that I referred to.
    Resources. We are continuing to be resourced, and this year 
I am getting an additional 90 personnel. One of the things that 
I have not spoken about in-depth is the need for technology.
    Technology is one of the biggest force multipliers that we 
can apply in support of that border patrol agent. By adding 
some of the technology that you saw personally last night, 
there is tremendous force multipliers.
    We have taken in this sector a step that has not been taken 
in other sectors. That is, we have taken what I refer to as a 
rest technology, and turned it into a deterrence technology, to 
where we stop the person from actually committing the crime so 
that we don't have to make the arrest.
    And we don't have to actually have to transport, process, 
detain, feed, safeguard, and all of these things that take away 
from that operational impact that we are looking to make.
    Mr. Shadegg. It was a multifaceted question. So forgive me 
if I just missed it. Again, I want you to answer two questions 
that I did propound. One, do you think we have gained 
manageable control of the sector.
    Mr. Aguilar. The management control aspect of the sector 
right now in the Nogales corridor of operation, which is the 
Santa Cruz County area, in the Douglas/Naco corridor, as I 
stated, we are at basically at a 7 year low right now.
    Is that acceptable? No. We are going to continue. It is a 
work in progress. We need to continue working on that. How we 
do that is by the expansion process, by the enhancements of 
technology, things of this nature.
    Mr. Shadegg. OK. The second question that I didn't hear the 
answer to. Do you think--well, maybe I did hear the answer to. 
Do you think the 260,939 is an acceptable or sustainable number 
over time?
    Mr. Aguilar. No, it is not acceptable, and that's why we 
continue to work on that, and to continue reducing those 
numbers out there.
    Mr. Shadegg. My time has expired. Thank you, Mr. Chairman.
    Mr. Souder. Mr. Kolbe.
    Mr. Kolbe. Thank you very much. I am going to go into the 
health care, but I just wanted to get on the record here about 
the air assets As you know the Appropriations Act of Fiscal 
Year 2002 directs the sector to implement the negotiations that 
were directed to relocate some of the helicopter operations to 
Sierra Vista.
    First of all, what is the number of air assets you have in 
this sector?
    Mr. Aguilar. In total, sir, right now we have nine pilots, 
including my supervisory pilot.
    Mr. Kolbe. And what aircraft?
    Mr. Aguilar. I have seven O86 helicopters, which are low 
duty helicopters, and I have one Huey, which is a large 
carrying capacity, and two fixed-wings.
    Mr. Kolbe. So eight helicopters?
    Mr. Aguilar. In total, I have eight, yes.
    Mr. Kolbe. And two fixed-wings?
    Mr. Aguilar. And two fixed-wings, yes, sir.
    Mr. Kolbe. And where are they currently located? I don't 
mean at this moment are they flying in the air, but when they 
bed down, where do they bed down?
    Mr. Aguilar. They are assigned right now in Tucson, out of 
Tucson Air Operations. I have one supervisory pilot, and I have 
one journeyman pilot, and one trainee pilot. I have three 
aircraft mechanics, four of the O86 helicopters, and the Huey 
is based out of there.
    At Sierra Vista, I have five pilots assigned there, and I 
have one trainee pilot, for a total of six. I have three 086 
helicopters stationed at Sierra Vista, and I have one fixed-
wing. So over 50 percent of my air assets are in Sierra Vista.
    Mr. Kolbe. Well, that is not quite 50 percent of your 
total, but anyhow we just checked this morning, and we were 
told just two have been there, and there has never been a third 
there.
    Mr. Aguilar. One of the reasons, sir, and I didn't go into 
this, I don't have mechanics at Sierra Vista.
    Mr. Kolbe. So they are not there?
    Mr. Aguilar. No, I don't have mechanics. In order for us to 
service these helicopters, I have to transport them from Sierra 
Vista to Tucson to get them worked on. That is why we don't see 
them on a constant basis.
    At the present time, we are in the process of converting 
positions. We have one mechanic that has been hired and is 
going through background checks that will be reporting to 
Sierra Vista as soon as OPM clears him and the background is 
done.
    So we are getting that unit fully operational out there, 
and as we speak, we have those pilots and those air assets 
based out of there.
    Mr. Kolbe. On paper or based there?
    Mr. Aguilar. Both. And again in order to support them--for 
example, on the inspections that are required, and on the 
mechanical duties that need to be performed on these, and 
because I don't have that infrastructure support there, they 
need to be conducted in Tucson.
    So obviously we bring them to Tucson to get that work done 
and then take them back.
    Mr. Kolbe. I know that we need to keep this hearing moving 
along. I want to take just a moment to talk, because on our 
next panel, we are going to have a CEO of one of the hospitals, 
and I want to talk for a moment about the issue of something 
that really bugs me a lot frankly, and I think it really upsets 
a lot of people here, and is a tremendous burden on the folks 
that live along the border here.
    And that is the amount of money that they have to bear in 
their taxpayer costs for the care, emergency care of illegal 
immigrants because the Border Patrol does not take care of 
those.
    Let me just if I might an excerpt from an INS policy on 
injured aliens encountered by service officers. ``Where the 
injury is such that the alien is not likely to escape, the 
officer shall not take him into custody, or take any action to 
use language from which an atmosphere of restraint could be 
conveyed to him or to anyone else present.''
    Must the Immigration and Naturalization Service take into 
custody those aliens injured while fleeing from Border Patrol 
Agents, and thereby incur responsibility for payment of medical 
bills? No.
    ``Aliens who are fleeing from Border Patrol Agents 
generally have not come into custody, and there is no 
obligation to pay medical injuries resulting from injuries that 
they may suffer, even if those injuries are a result from 
seeking to avoid the pursuant of INS personnel.''
    And so does that accurately characterize the current 
policy?
    Mr. Aguilar. I don't have that memo in front of me, sir, 
but what you just covered is what we refer to as prosecutorial 
discretion, and that is what that memo describes, yes, sir.
    Mr. Kolbe. Do you agree that when you stop at a checkpoint 
or in the desert, or at any other place, and take somebody and 
put them into the van, is that individual while you are 
transporting them back to the border in your custody?
    Mr. Aguilar. A person arrested, yes, sir, is in our 
custody.
    Mr. Kolbe. So you have a high speed chase on the 
interstate, and there is a rollover, and those that are not 
injured are in your custody, but those that are injured are not 
in your custody. Would that be a correct characterization?
    Mr. Aguilar. Those that are injured, our primary 
responsibility and response would be to call in the----
    Mr. Kolbe. They are primarily your responsibility?
    Mr. Aguilar. Our primary responsibility is for the well-
being, to call in the emergency team.
    Mr. Kolbe. That wasn't my question. The ones that you put 
into the van that are not injured to take back to the border, 
they are in your custody?
    Mr. Aguilar. Yes.
    Mr. Kolbe. Those that are injured are not in your custody, 
even though you are holding them there while the ambulances are 
arriving, or the air ambulances, or whatever; is that correct?
    Mr. Aguilar. If we are holding them, they are under arrest. 
If we are holding them in our custody, then we have taken 
custody of them.
    Mr. Kolbe. What is defined as holding them?
    Mr. Aguilar. Actually identifying the person as being under 
arrest, placing them--restraining their movement, and things of 
this nature.
    Mr. Kolbe. When the ambulance arrives and you remove the 
handcuffs from them are they not under arrest?
    Mr. Aguilar. We do not do that, sir.
    Mr. Kolbe. You do not do that?
    Mr. Aguilar. No.
    Mr. Kolbe. I think I would beg to differ with you.
    Mr. Aguilar. There have been some cases where the ambulance 
drivers have asked us to help them restrain the people that 
have been hurt, and actually we have rode with ambulance 
drivers to the medical facilities for the safety of the 
ambulance drivers.
    Mr. Kolbe. But they are still not in your custody?
    Mr. Aguilar. At that point, no. In other words, we are 
performing the duties of a law enforcement officer at that 
point.
    Mr. Kolbe. And your reason for not taking them into custody 
is what? Why is that person that is injured, and is an illegal 
alien, not in your custody, but the person that you are 
transporting back to the border is in your custody?
    Mr. Aguilar. That is basically what that memo speaks to, is 
prosecutorial discretion. At the point that we take a person 
into custody----
    Mr. Kolbe. Let's be honest. It is to avoid the medical 
costs.
    Mr. Aguilar. Yes, sir, part of it is.
    Mr. Kolbe. Thank you. That's all I was trying to get at; is 
to avoid the medical costs, and we know that. The University 
Medical Center has $10 million this year in uncompensated care.
    The Copper Queen, a small 28-bed hospital in Bisbee, has 
$140,000. It may not seem like a lot, but for a small rural 
hospital that is a lot of money.
    Mr. Aguilar. I agree. I agree. The only thing I would point 
out, sir, is that--and I know Mr. John Duvall, the chief 
financial officer for the University Medical Center, and when 
we started taking a look at those numbers, those were not all 
Border Patrol related. Some of those were paroled into the 
country.
    Mr. Kolbe. By the way, thank you for mentioning parole. It 
makes me think. When the hospital finishes treating, will you 
go to the hospital to transport that person back to the border?
    Mr. Aguilar. We will do that if we have the operational 
resources to do that. One of the things that I explained last 
night is that when a supervisor receives a call on the line, 
and we are all forwarded deployed, it is up to that supervisor 
to make a determination as to whether to respond to the medical 
facility on a situation where there might be an illegal alien 
there, or pull an officer from that line to make that call.
    Mr. Kolbe. I wonder why the hospitals tell me that they 
never come, that they will never come? Because if you came, you 
would be taking them into custody wouldn't you?
    Mr. Aguilar. If they were in fact illegal aliens, yes, sir.
    Mr. Kolbe. And they could then bill you for the cost of it?
    Mr. Aguilar. At that point, no, they would not bill us for 
the cost if we take them into custody afterwards. The only way 
we can pay, sir, for any medical costs associated with an 
illegal alien, and this is by statute, and this is by law, 42 
U.S.C. 249, is the only statute that allows that, is when these 
people are in our custody.
    Mr. Kolbe. I understand that. If they are in your INS 
detention facility up in Florence, and they get ill, you pay 
for those.
    Mr. Aguilar. Yes.
    Mr. Kolbe. That's right, but you have them in custody when 
you transport them back to the border, but for medical 
purposes, you make sure that you don't have them in custody. 
And who in your view should have that responsibility; should it 
be the taxpayers of Cochise County?
    Mr. Aguilar. I can't answer that, sir.
    Mr. Kolbe. You don't have any personal views on that at all 
about that on who should be responsible? I mean, the person who 
got across the border and into this country, because we--and I 
am not specifically personally blaming you, but we as a 
government failed to stop him from coming across?
    Mr. Aguilar. Yes.
    Mr. Kolbe. Shouldn't that be a Federal responsibility?
    Mr. Aguilar. I have to leave that to the taxpayer to 
determine.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Souder. I thank each of you for your testimony, and for 
your work. We may have some additional followup questions. I 
know that Chairman Kolbe is making a point, and what I am 
hearing, and I had not heard this argument before, that Mr. 
Aguilar is here representing his agency, and can't really give 
a personal opinion.
    Mr. Kolbe. I realize that.
    Mr. Souder. But I thank each of you for your testimony, and 
you are now dismissed, and if the second panel could please 
come forward; The Honorable Ray Borane, The Honorable Chris 
Roll; the Honorable Larry Dever; Mr. Harlan Capin, and Mr. 
James J. Dickson.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. The first witness is the 
Honorable Ray Borane, mayor of the city of Douglas.

STATEMENTS OF RAY BORANE, MAYOR, CITY OF DOUGLAS, AZ; CHRIS M. 
  ROLL, COCHISE COUNTY ATTORNEY; LARRY DEVER, COCHISE COUNTY 
SHERIFF; HARLAN CAPIN, PRESIDENT, NOGALES ALLIANCE, PORT OF THE 
 FUTURE; JAMES J. DICKSON, ADMINISTRATOR AND CEO, COPPER QUEEN 
                       COMMUNITY HOSPITAL

    Mr. Borane. Thank you. I would like to thank Chairman 
Souder, the Honorable members of the subcommittee, and 
Congressman Kolbe, for your presence here today.
    I apologize if the following remarks regarding the border 
crisis are repetitive, but this is in fact an old story, a 
stagnant story, where nothing changes, but only shifts from 
place to place, and where only the variable changes; the most 
variable being the tragedy of September 11th.
    Yet, however old or stagnant, it is an important situation 
where matters go unresolved and the loss and degradation of 
life persists.
    First, let me preface my remarks by stating that the 
devastating attacks on September 11th have changed the 
landscape throughout our Nation, from New York to Douglas, AZ. 
I will touch on this briefly as I backtrack and bring you up to 
date on our situation.
    However, I want to be clear that the following statements 
regarding illegal immigration should not be in any way 
misconstrued as a lack of concern or support for securing our 
Nation and our borders, which I consider a priority.
    While these two issues overlap, illegal immigration remains 
a phenomenon that will only be solved when addressed from a 
realistic perspective, and I will try to highlight some of that 
we are confronted with.
    For several years I have worked closely and cooperatively 
with Congressman Kolbe and Governor Hull. I hope and believe 
our collaborative work has achieved, created attention, and 
directed positive results for the citizens of many border 
communities like Douglas.
    Despite our efforts, Douglas and other border communities 
have suffered immensely at the hand of incomprehensive, 
unrealistic, and ineffective policy resulting from the prior 
lackadaisical leadership in Washington.
    Earlier this year, President Fox and President Bush were on 
the right track, and on the verge of reaching historic reform 
between our two countries. Both leaders had recognized the 
importance of the border.
    At its apex, the premature and unrealistic talk of amnesty 
raised false hopes. I guess worker programs rose to the top as 
a solution to illegal immigration. Yet, all these efforts were 
stalled and seemingly lost in the rumble as the mournful events 
of September 11th.
    No one knows the rippling effects better than we. The 
border dividing one cultural, one bicultural, and one bilingual 
community became real. Suddenly a community inextricably tied 
socially and economically became American on one side and 
Mexican on the other.
    Although illegal immigration is of the utmost concern, the 
issue is hardly mentioned in Washington since September 11th. 
As we look back on the issue, we witnessed the transformation 
of a sleepy time into the Nation's hot spot and principal 
corridor for the crossing and trafficking of illegal aliens.
    The root and inception of what would become our demise lies 
in actions that took place years before in San Diego and El 
Paso. The administration and its failed policy effectively 
funneled thousands of illegal immigrants into this area by 
allocating massive resources in these two areas.
    While not the U.S. military, the U.S. Border Patrol 
comprises a veritable military division; 550 strong, uniformed 
and armed with the latest technology, equipment, and military 
strategy.
    The Federal Government has effectively militarized the 
border. More and more agents were employed in a military 
strategy to control the border. And I ask what is meant by 
controlling the border.
    Is the border under control when the apex of 61,000 UDA 
apprehensions a month are reduced to 5,000 or 1,500? Because 
1,500 still is a considerable number, not counting the hundreds 
who get through.
    Or is it stopping them completely, and is that the goal; 
whether we are talking about Douglas, AZ, or McAllen, TX. We 
are never going to stop them from coming until we get some type 
of a practical and realistic solution.
    At best the strategy to control perpetuates unscrupulous 
networks of scavengers, known as coyotes and polleros, who 
shift the tides of illegal immigrants to remote locations. This 
is the failure that can only be compared to that of the drug 
war.
    All the while, industrial and domestic life in America 
churns like a fine-tuned machine well oiled by immigrant labor. 
Understand that I applaud the many efforts of the Border Patrol 
Agents who have been placed in a no-win situation by misguided 
government policy.
    Border Patrol Agents have become an integral part of our 
community and our economy, and they are appreciated. However, 
they are not the answer, and they are only part of the 
solution.
    This is not to say that other solutions have not been 
considered. Even prior to September 11th the government in its 
half-witted wisdom, mandated the replacement of existing border 
crossing visas with a technological panaceas for illegal 
immigration, the laser visa card, required solely of Mexican 
Nationals.
    The government set implementation deadlines that U.S. State 
Department officials repeatedly stated were unrealistic, given 
that more than 5 million cards would need to be replaced, not 
including cards for new visa applicants.
    Not only did the government ignore the facts, it 
embarrassingly enforced the repossession of the old visa cards 
without funding the technology and equipment needed to read the 
new ones.
    Today, we have some of the most advanced biometric visa 
cards, with no machines to read them. The result is that the 
United States has had to turn away thousands of consumers, 
relatives, and business people, who had their cards suddenly 
expire or taken away.
    Their inability to come across the border is devastating to 
both them and us. Attempts in the Congress to extend the laser 
visa deadline have gone unnoticed. Unlike the prominent 
powerful and influence national figure of Senator John McCain 
of urban Arizona, our own Congressman Kolbe has been 
exceptional in his sensitivity, leadership, and commitment to 
our border problems.
    It is unfortunate that the runt Senator has chosen to 
champion issues of politics, while the meager crossing the 
border wish for a different kind of reform, one which would 
solve a poignant human drama plays last to the woes of 
corporations and their politicians.
    His inaction in these issues affecting this rural area have 
been disheartening and disappointing. While we agree that 
security is paramount in our survival, especially following the 
tragic events of September 11th, it also has the indirect power 
to jeopardize economies.
    Further exacerbating our situation, crossings at the U.S. 
port of entry slowed to a crawl, falling 37 percent immediately 
after September 11th as a result of justified, intensified 
inspections.
    Mexican consumers make 40 percent of our community retail 
sales, amounting to $52 million annually. Unfortunately, those 
who are still allowed to cross were discouraged by having to 
wait up to 2 hours to enter the United States.
    This puts into perspective the exponential efforts of the 
aforementioned laser visa debacle that has cost us a 
significant amount of revenue. This has already resulted in 
unemployment and a diminished quality of life for many.
    If you carefully analyze all the dynamics of the border, 
you will find that the border is still virtually open, porous 
as a sieve. Once the partial curtain of enforcement at the 
border is crossed, the road to their ultimate destiny is 
uninterrupted, as well as their work place.
    Throughout our history the United States has looked to 
immigrants to build the richest nation on the face of the 
earth. Today, as perhaps the greatest economy in the world, we 
depend on them evermore. Therein lies the hypocrisy witnessed 
daily here, at ground zero on the front lines.
    When illegal aliens are hired because urbanites in this 
country have forgotten, or never knew how, to make their own 
beds, mow their own lawns, and cook their meals, as we do ours 
daily, it causes open fields to be littered by thousands of 
plastic jugs and pieces of clothing.
    It means ranchers' water lines are cut and their cattle die 
from ingesting discarded plastic. And incidentally I believe 
that the Federal Government should subsidize the clean-up these 
ranchers endure and in and day out.
    In the northeast or the Beltway, for that matter, large 
numbers of illegal aliens work in homes, hotels, restaurants, 
landscaping businesses, fields, orchards, factories, 
construction crews, and any other industry that employs and 
exploits them by taking advantage of every virtue inherent to 
their poverty and culture.
    When business sacrifices prudence for a tighter bottom line 
by hiring illegal aliens, and congratulate themselves on their 
supposed great humanitarian compassion as they wink at the law 
and hire illegal aliens, they should know that in the last 
month five aliens died near our border from exposure, as many 
more are destined to do in the near future.
    Existing legislation prescribes legal sanctions for 
employers, and I don't expect employers to become de facto INS 
officers. We should recognize this Nation's insatiable demand 
for migrant labor. Why else would the millions of undocumented 
immigrants currently reside in this country.
    The INS should focus more of their efforts on enforcing 
employer sanctions rather than hypothetically continue with the 
political charade on the border, which is causing the poor to 
risk their lives while crossing illegally into this country.
    In either case, we need to move forward beyond the myopia 
that leads to pouring more resources on the border. We need a 
holistic approach to achieve real solutions that look at 
economics and socioeconomics in a global economy that does not 
readily answer to arbitrary lines, or iron walls that we call 
borders.
    At the heart of the challenge and the solution lies a labor 
problem and not the immigration problem. In conclusion, this is 
an international crisis that potentially jeopardizes the 
beneficial relationship between Mexico and the United States.
    We need constructive, diplomatic dialog focused on 
immigration policy. Presently, President Fox is highlighting 
the importance of the border, its key role in the prosperity of 
both our nations and the challenges we face.
    He has outlined concerns in the areas of economic 
development, the environment, health and others, noting what we 
well know that an outbreak of hepatitis in Agua Pirieta, our 
sister city, doesn't stop at a whimsical border.
    It impacts Douglas just as well. However, he remains a lone 
voice in the desert, and his efforts fruitless without 
substantive dialog with the United States. These are serious 
issues that need to be addressed by serious people with serious 
solutions.
    Our present immigration policy is in desperate need of 
reform as it continues to jeopardize lives. We are not the 
problem, nor do we want to be the battleground. And I thank you 
for the opportunity to address this important committee today.
    [The prepared statement of Mr. Borane follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.033
    
    [GRAPHIC] [TIFF OMITTED] T4331.034
    
    [GRAPHIC] [TIFF OMITTED] T4331.035
    
    Mr. Souder. Thank you.
    Mr. Roll.
    Mr. Roll. Mr. Chairman, members of the subcommittee, 
Representative Kolbe, I want to thank you for the opportunity 
to present testimony at this investigative hearing.
    I am the elected Cochise County Attorney, and as I am sure 
that you are aware, Cochise County has over 80 miles of border 
that is contiguous with the Republic of Mexico. This stretch of 
border is heavily used by smugglers of illegal drugs, as well 
as undocumented immigrants.
    As a consequence, there is a large contingent of Federal 
Agents stationed and operating in Cochise County. This includes 
agents of the U.S. Border Patrol, U.S. Customs Service, U.S. 
Immigration and Naturalization Service, Federal Bureau of 
Investigation, and the Drug Enforcement Agency.
    These agents make a large number of apprehensions within 
our county that are related to drug smuggling. May of these 
cases are declined for prosecution by the U.S. Attorney's 
Office.
    Once declined, these cases are routinely submitted to my 
office for local prosecution. During the calendar year 2001, 
approximately 140 defendants apprehended by Federal Agencies 
were indicted and prosecuted by my office.
    Now, I was recently informed that the Federal Budget 
proposed by President Bush does away with all Federal funding 
that would come to local prosecution and law enforcement 
agencies in the form of Edward Byrne Memorial State and Local 
Law Enforcement Block Grants, the Byrne Grants.
    In Arizona, these funds are distributed to local agencies 
by the Arizona Criminal Justice Commission. In Federal fiscal 
year 2001, my office received approximately $176,160 in the 
form of a Byrne Prosecution Grant.
    I have also attached to my written testimony as attachment 
a copy of the Byrne Funding Summary that was prepared by the 
Arizona Criminal Justice Commission. And that includes a 
summary of the productivity of the local task force, the 
Cochise County Border Reliance Group.
    I want to point out to the subcommittee how important Byrne 
Grant Funding is to my office. Our Byrne Prosecution Grant 
provides us with two experienced prosecutors and an experienced 
legal secretary, and without this funding our office will not 
be able to prosecute drug smuggling within this county at the 
present level.
    Loss of this funding would not only impact our office, but 
would also impact the local law enforcement agencies, the U.S. 
Attorney's Office, and all of the Federal law enforcement 
agencies that are operating within this county.
    I would request that the members of this subcommittee seek 
to maintain at least the current level of Byrne Grant funding 
either in its current form or in some new form that will enable 
my office to continue its efforts to combat the smuggling of 
drugs through Cochise County.
    Should funding and prosecution decline, drug trafficking 
would certainly increase and bring with you all its associated 
crime and danger to the citizens of this county. It should also 
be noted that the vast majority of drugs seized in Cochise 
County and resulting in Cochise County prosecutions are 
intended to be distributed in counties other than Cochise, and 
in States other than in Arizona.
    Consequently, our law enforcement officers and prosecutors, 
as well as those collaterally involved in the process, work 
hard for the benefit of others. This is a consequence of living 
in a border county, but it also illustrates the need and the 
justification for Cochise County to continue to receive Federal 
funding for drug prosecution.
    If drug prosecution is reduced in Cochise County, it will 
surely have negative repercussions in counties other than 
Cochise, and in States other than in Arizona. Thank you.
    [The prepared statement of Mr. Roll follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.036
    
    [GRAPHIC] [TIFF OMITTED] T4331.037
    
    [GRAPHIC] [TIFF OMITTED] T4331.038
    
    Mr. Souder. Thank you.
    Sheriff Dever.
    Sheriff Dever. Mr. Chairman, members of the committee, and 
Congressman Kolbe, and Congressman Shadegg, thank you for being 
here. I am not going to read my written testimony to you, 
because it is much too long, and I learned to follow the rules 
a long time ago, because when that red light comes on, it means 
stop.
    I wish we could put one of those at the border and maybe we 
could put an end to all of this. A couple of points that I 
would like to make. You have already heard of the collateral 
damage and all the mess that you have apparently seen in your 
tour, and some of the things that are going on down there.
    People out here in this audience actually are the true 
victims. There are many of them here today whose lives have 
been totally turned on their head, and they have been 
disrupted, and their fences cut, and their homes invaded, tons 
and tons of garbage and trash left in their back yards.
    I had a young lady in my office who was with a group called 
Border Links--it is humanitarian group--a few months ago prior 
to September 11th, and we talked about the need to defend, 
protect and defend our borders.
    She asked a question. She said protect and defend them 
against what. Well, I hope that following September 11th that 
she has a better idea what we are talking about, because 
absolutely nobody, nobody knows who is really crossing that 
border.
    It is out of control, and it is a sieve, in spite of all of 
the improvements, the technology, and the Federal forces that 
have been sent down here, it continues to be a porous sieve, 
and where people just come through basically at will.
    If they want to get through, they can, and they will, and 
do that. We did not ask for any of this, and it all came our 
way as a surprise. And in the early discussions, and in the 
things that were said by the INS, these were called--what was 
the language--unintended consequences of strategy applied in El 
Paso and San Diego.
    We have come to learn and find out that these were not 
unintended consequences at all. In fact, it was all part of the 
plan. The strategy was to funnel and force these people in a 
more harsh environment of the desert, the southern Arizona 
desert, in order to discourage them from coming here.
    And in the words of the former Commissioner, Doris Meisner, 
she said, well we thought they would take one look at the place 
and turn around and go home. The point being that obviously 
they have no harm to turn around and go to, or they would be 
there and wouldn't be coming here to begin with.
    There is a tragedy, a real travesty, and something that 
really wasn't fair, and a pretty poor design, and I would say 
again that everything that the Federal Government does has a 
local effect.
    And any time that there is any kind of strategic plan, 
operational plan, that is going to be put into place, be it the 
border or anywhere else, that you must--we must involve local 
authorities, and local citizens in that dialog, and in that 
decisionmaking process so we can be forewarned as to what is 
going to occur.
    Now, I think there was a checkpoint, and it is called the 
border. And David Aguilar and I had a long running argument 
over that. I say put your resources on the border, and take 
down the checkpoints, and that is what is creating most of the 
trouble for me and for my constituents, is that we have moved 
the border in effect another 25 miles north.
    And people cross once, and they have to cross again, and in 
the process of doing that, they are wandering around and 
through my back yard, your back yard, and creating nothing but 
death and destruction, and fear.
    People who used to go out walking in the mornings can no 
longer go walking down their little country road, and little 
country lane, because out of fear, they can't leave their homes 
for fear that they will be invaded.
    It means that somebody always has to be there; a husband 
and wife, and family can't go out together for fear that when 
they come back, they won't have anything left.
    And those are realities, and it is more than just fear. So 
I would ask and implore that we not repeat these mistakes of 
the past and that anything that we plan to do on a national 
level, a Federal level, a unilateral level, an international 
level, that we consider and understand that it is local people 
who suffer the consequence, and local people who benefit when 
there are good choices made and good decisions made.
    But no social program, and no economic program, and none of 
those kinds of programs are going to have any value unless we 
control our borders.
    There has to be enforcement and there has to be controls in 
order for those to ultimately be effective, and until we get 
that under control, I say there is no need to even talk about 
anything else.
    Yes, the numbers are down in some places. But there are 
some people sitting in this office tonight who will tell you 
that they haven't seen any effect, and it has been a cumulative 
effect. Red lights aren't going to stop them. I would be glad 
to answer your questions a little bit later. Thank you.
    [The prepared statement of Sheriff Dever follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.039
    
    [GRAPHIC] [TIFF OMITTED] T4331.040
    
    [GRAPHIC] [TIFF OMITTED] T4331.041
    
    [GRAPHIC] [TIFF OMITTED] T4331.042
    
    [GRAPHIC] [TIFF OMITTED] T4331.043
    
    [GRAPHIC] [TIFF OMITTED] T4331.044
    
    [GRAPHIC] [TIFF OMITTED] T4331.045
    
    [GRAPHIC] [TIFF OMITTED] T4331.046
    
    Mr. Sounder. Thank you.
    Applause is inappropriate at a congressional hearing, and 
we do this in Washington as well as here. I know that you have 
strong opinions, and are pleased, but it is not appropriate in 
an oversight hearing.
    Mr. Capin.
    Mr. Capin. Good morning, Mr. Chairman, and Congressman 
Kolbe, and Congressman Shadegg. I was going to welcome the 
distinguished committee to Arizona, but I will just welcome 
you, Mr. Chairman, since we have two Arizonans.
    My name is Harlan Capin, and I am the President of the 
Nogales Alliance Port of the Future. Most importantly, I am a 
native of Nogales, AZ, and have been involved in cross-border 
issues since 1955.
    I want to thank you for inviting me to participate in this 
hearing. I am going to talk about the Ports of Nogales. This is 
a complex topic, and vital to the future of our region, and we 
are an important component of the corridor.
    For Nogales to be a viable conduit to facilitate trade, we 
need your help, in technical assistance and the funding to 
implement change. Nogales, AZ, is the main point of entry on 
the Arizona-Sonora border.
    The local industry segments depend on the fish and border 
crossing procedures include retail, produce, customs brokers, 
government, and tourism. While the written testimony that I 
have submitted will address all but government and tourism, 
because of the time constraints, I will focus on the retail 
segment only.
    There are three separate locations in Nogales, AZ, for 
cross-border traffic. Nogales ports handle more pedestrian, 
commercial, and private automobile traffic than any other port 
on the Arizona-Sonora border.
    Over the last year, there has been a noticeable 12 percent 
decrease in traffic at the two downtown crossings, Morley 
Avenue, and DeConcini crossings. While a 7 percent decrease in 
traffic has been identified at the Mariposa Port, which is on 
the western edge of town, and is the only port that handles 
commercial traffic.
    Nogales, AZ merchants, as well as merchants along the 
entire U.S.-Mexico border have always depended on Mexican-
Nationals who cross the border to shop. It has been reported 
that many U.S. border businesses get anywhere from 50 to 65 
percent of their volume from cross-border shoppers.
    U.S. merchants along the border have seen their business 
decline since 1992 for various reasons, some of which are the 
direct result of policy or laws imposed by both the United 
States and the Mexican government.
    In 1992, Mexico imposed a limit of $50 per person for the 
use or for those using land order crossings.
    In 1992, the United States installed a metal landing and 
wall, 10 feet high along the border in Nogales, AZ. In my 
opinion this told Mexican Nationals to stay in your own 
country. We don't want you.
    In 1994, the peso evaluation was disastrous to many 
merchants as it was the largest peso devaluation in history. 
Many people lost their jobs, and others had their working hours 
reduced, and in some instances businesses closed.
    In 2001 the implementation of the laser visa, which cost 
Mexican Nationals between $50 to $53 per visa, is the deterrent 
to free trade. The buildup of border enforcement by the U.S. 
Government, and the implementation of programs, such as 
Operation Hold the Line, Gatekeeper, and others, has had a 
double edged effect on the border.
    These operations were helping to control minor crime, which 
has also had an effect on the sales in the downtown areas in 
the port of entry communities. The INS background report of 
February 1996 substantiates this premise.
    The profiling of Mexican looking individuals by Border 
Patrol Agents has also discouraged Mexicans from crossing the 
border to shop, visit relatives, or seek medical attention. 
They don't want to be hassled.
    In Nogales, the border merchants have found that their 
business began to come back, and the delays of the visa 
implementation, and the heinous attack on the United States 
took their toll on the Nogales border businesses, which have 
seen their sales plummet approximately 20 to 30 percent since 
September 2001.
    The freight trains that run through the centers of Ambos 
Nogales is another major issue and a deterrent to business, and 
is detrimental to the health of the citizens who live there.
    The maquila industry, which is a major factor in the 
economy of Ambos Nogales, has been affected by the recession 
and the September 11th tragedy. This reflects on Nogales retail 
sales, as many of these people shop in Nogales, AZ businesses.
    Many of these workers had the old border crossing card 
called the Mica, which was issued at no cost by the U.S. 
Government. Five plants have closed, and 12,049 workers have 
lost their jobs in 2001.
    In conclusion, the Bush and Fox administrations have shown 
that they are committed to working jointly to address the many 
issues that face our people and our Nation. The U.S. Government 
needs to address current and existing laws which discriminate 
against Mexico and Mexican nationals.
    Why should we have different laws and policies when it 
comes to dealing with Mexicans and Canadians. There must be 
parity on both of our borders. The time is right for the United 
States and Mexico to begin changing existing laws and policies 
that restrict the flow of people crossing our Southern borders.
    The Government of Mexico must address its current laws as 
they pertain to the limit imposed on its citizens when making 
purchases in the United States. Also, Mexico should reevaluate 
its policy regarding numerous highway checkpoints which present 
a hinderance to commercial trade and traffic coming north.
    Let us build on this new relationship and make North 
America a better and more prosperous place to live, improving 
the quality of life for all Mexicans, Canadians, and Americans, 
by treating each other as equals on all fronts. Thank you.
    [The prepared statement of Mr. Capin follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.047
    
    [GRAPHIC] [TIFF OMITTED] T4331.048
    
    [GRAPHIC] [TIFF OMITTED] T4331.049
    
    [GRAPHIC] [TIFF OMITTED] T4331.050
    
    [GRAPHIC] [TIFF OMITTED] T4331.051
    
    [GRAPHIC] [TIFF OMITTED] T4331.052
    
    [GRAPHIC] [TIFF OMITTED] T4331.053
    
    [GRAPHIC] [TIFF OMITTED] T4331.054
    
    [GRAPHIC] [TIFF OMITTED] T4331.055
    
    [GRAPHIC] [TIFF OMITTED] T4331.056
    
    [GRAPHIC] [TIFF OMITTED] T4331.057
    
    [GRAPHIC] [TIFF OMITTED] T4331.058
    
    [GRAPHIC] [TIFF OMITTED] T4331.059
    
    [GRAPHIC] [TIFF OMITTED] T4331.060
    
    [GRAPHIC] [TIFF OMITTED] T4331.061
    
    [GRAPHIC] [TIFF OMITTED] T4331.062
    
    [GRAPHIC] [TIFF OMITTED] T4331.063
    
    [GRAPHIC] [TIFF OMITTED] T4331.064
    
    [GRAPHIC] [TIFF OMITTED] T4331.065
    
    [GRAPHIC] [TIFF OMITTED] T4331.066
    
    [GRAPHIC] [TIFF OMITTED] T4331.067
    
    [GRAPHIC] [TIFF OMITTED] T4331.068
    
    [GRAPHIC] [TIFF OMITTED] T4331.069
    
    [GRAPHIC] [TIFF OMITTED] T4331.070
    
    [GRAPHIC] [TIFF OMITTED] T4331.071
    
    [GRAPHIC] [TIFF OMITTED] T4331.072
    
    [GRAPHIC] [TIFF OMITTED] T4331.073
    
    [GRAPHIC] [TIFF OMITTED] T4331.074
    
    [GRAPHIC] [TIFF OMITTED] T4331.075
    
    [GRAPHIC] [TIFF OMITTED] T4331.076
    
    [GRAPHIC] [TIFF OMITTED] T4331.077
    
    [GRAPHIC] [TIFF OMITTED] T4331.078
    
    [GRAPHIC] [TIFF OMITTED] T4331.079
    
    [GRAPHIC] [TIFF OMITTED] T4331.080
    
    [GRAPHIC] [TIFF OMITTED] T4331.081
    
    [GRAPHIC] [TIFF OMITTED] T4331.082
    
    [GRAPHIC] [TIFF OMITTED] T4331.083
    
    [GRAPHIC] [TIFF OMITTED] T4331.084
    
    [GRAPHIC] [TIFF OMITTED] T4331.085
    
    [GRAPHIC] [TIFF OMITTED] T4331.086
    
    [GRAPHIC] [TIFF OMITTED] T4331.087
    
    [GRAPHIC] [TIFF OMITTED] T4331.088
    
    [GRAPHIC] [TIFF OMITTED] T4331.089
    
    [GRAPHIC] [TIFF OMITTED] T4331.090
    
    [GRAPHIC] [TIFF OMITTED] T4331.091
    
    [GRAPHIC] [TIFF OMITTED] T4331.092
    
    [GRAPHIC] [TIFF OMITTED] T4331.093
    
    [GRAPHIC] [TIFF OMITTED] T4331.094
    
    [GRAPHIC] [TIFF OMITTED] T4331.095
    
    Mr. Souder. Thank you.
    Mr. Dickson.
    Mr. Dickson. I want to thank you for having me to speak. 
Southern Arizona has enjoyed long ties with our neighbors to 
the south, in Mexico, and a good portion of our population is 
of Mexican heritage.
    It is as a direct result Federal and State policies that 
the balance between our neighbors to the south and Arizona has 
shifted to the tragic and contentious situation we find 
ourselves in today.
    Cochise County is a sparsely populated County in Southern 
Arizona. It is approximately the size of Connecticut and Rhode 
Island combined. The areas's health care system is experiencing 
all the problems that are usually associated with other small 
rural areas.
    The majority of the county is federally designated as 
medically undeserved, and it is also a health care professional 
shortage area. We cannot now in Cochise County meet the minimum 
Federal standards for health care for the citizens of our 
county.
    We have approximately 120,000 residents in the County of 
Cochise, and the shift in the government policy has created a 
situation. We have heard numbers from the INS that they have 
apprehended 225,000 or 445,000 people. According to the INS's 
own internal statistics, that means that they are missing three 
to one and four to one.
    So we have over the equivalent of one million people 
crossing the border in Cochise per year. This is the State of 
Alaska coming across our border since the change has been done.
    We also have had an unintended impact. We have seen the 
effect of border towns becoming boom towns in Sonora, Mexico, 
and Agua Prieta, Mexico. The population of Agua Prieta has 
grown from 40,000 to 80,000, and some estimates go as high as 
140,000 people.
    The small restful town of Naco, Mexico, has grown from 
10,000 to 25,000 and in some estimates has grown to 40,000 
people. These populations increase whether migrating or 
residing in boon towns.
    And if you put that together that is 10 to 15 times the 
population of Cochise is now residing across the border or 
crossing the border in an annual area. This has put a demand on 
the health care services of southern Arizona that were never 
designed.
    And as the Congressman mentioned further, most of our 
trauma centers in Tucson are now in effect threatening to close 
because they are sustaining multi-million dollars of 
uncompensated losses because of this population across our 
border.
    The irony of it is that the more border officers you place 
on the border, the more apprehension mishaps that you have, and 
the most call there is for the trauma system. I would like to 
go through one mishap that occurred to us. This is what 
actually happens.
    There was a multiple trauma injury due to a hot pursuit by 
the INS. Now, these people are jammed into vans and it is a 
slave trade. You cannot believe how many people they put into a 
car, and then the INS takes them into hot pursuit, and they go 
into a ditch.
    And we get a call, and then they sit there and call the 
local ambulance service and EMS service, and sit there and do 
nothing until the ambulance comes and apprehends them, because 
they don't put them in handcuffs.
    Chief Aguilar promised us that they would help us with this 
situation over 2 years ago, and we have seen no action on this 
issue. They will never come at night and help us out.
    The hospital that I work for went on full disaster alert. 
We were expecting 20 patients to be coming into a 28 bed 
hospital. The problem is that when these people are trying to 
be apprehended, they flee into the Sonora Desert and into the 
night.
    So we don't know how many were actually going to be 
apprehended. Five were brought in, and two transported to 
trauma centers in Tucson and to the Sierra Vista Regional 
Medical Center, and three were treated.
    Now we come to the big dilemma. We know that these people 
are illegal immigrants. We are sitting in the emergency room 
with our nurses and our doctors, and where do we release these 
people to?
    We no longer call the INS because they will not come. If it 
is during the day, it is the Mexican Consulate. They will come 
over and take them, but if they are from El Salvador or if they 
are from other countries, they will not pick them up, and we 
release them back into the night so that the INS can apprehend 
them again.
    It is a tragic and sad situation. There is no compensation 
for this. The other end consequence is what we call 
compassionate entry. Now that the populations have tripled, and 
quadrupled, gone up across the border, the way you can gain 
entry into the United States for advanced health care due to 
trauma, etc., is a simple waiver of the foreign entry.
    We had four children who were burned in Naco, Mexico, and 
they were brought across the border, and we stabilized them, 
and we transported them to the only acceptable trauma center 
for burns of this nature, up to Maricopa Health Center, and 
three died, one survived, at a total health care cost of 
$300,000.
    This is what we encounter every day. Just last week, and as 
you will see in my testimony, there was a Federal Officer from 
Mexico who was shot, and brought across the border, and he was 
DOA.
    I want to take about two or three recommendations that I 
have, and I see that my time has run out. The Federal 
Government designed $25 million in their legislation to help 
health care in the border areas.
    This money has been taken by the State and put into systems 
that we have not seen a penny of this money. It is under a 
Federal Program for where you must have a residence, and you 
must establish a 30 day residency. These people are not 
residents, and they will not establish a 30 day residency, and 
therefore that money is used by the States to offset their 
general revenue funds.
    And in my recommendations, I am asking that if you do any 
further funding to recognize this problem for health care, and 
that it be direct block grants to the State, and that money 
then be designated to the hospitals to help with this care.
    Because right now at the three border hospitals that are in 
this area receive none of the money originally dedicated by the 
Federal Government for that issue. I also ask that you ask the 
INS to pick these people up in the night. These are illegal 
immigrants.
    And Congressman Kolbe placed it just as it is. We have to 
release them there. We have people who are dehydrated and sick, 
and we treat them, and we then have the situation where we are 
fattening up for a second catch. What is this?
    These are illegal immigrants that were apprehended and then 
we have to let them go after we have made them stable enough to 
continue their journey northward.
    And last I would think that we should do something like the 
Busara Program, and recognize that we should have a guest 
worker program, and we cold stop some of these problems.
    The border does not seal, and our costs are up 400 percent, 
and they are going up every year, over this year, and over last 
year. Thank you very much.
    [The prepared statement of Mr. Dickson follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.096
    
    [GRAPHIC] [TIFF OMITTED] T4331.097
    
    [GRAPHIC] [TIFF OMITTED] T4331.098
    
    [GRAPHIC] [TIFF OMITTED] T4331.099
    
    [GRAPHIC] [TIFF OMITTED] T4331.100
    
    Mr. Souder. We are going to do two rounds here. I have to 
get back to Tucson to catch a plane that will get me home at 11 
tonight, and so I can be at a 7:30 meeting in the morning. So I 
apologize that I am going to have to exit fast.
    But I am going to ask a few questions. It has been very 
informative to me because these are new variables to me that I 
have not heard in other places and I do know that when you 
squeeze one place, the drugs move.
    That is true in Indiana, and it is true in the overall 
midwest, and it is true on the borders, and it is true in 
Colombia. It is true around the world, and we have to get ahead 
of the curve when we are seeing this type of thing, and you 
each have nuances that are very informative, both for our 
report and for our questions.
    So I do have some questions, but I thought in this panel 
that if Chairman Kolbe would like to go first.
    Mr. Kolbe. I will just ask a couple of very quick ones, and 
then hopefully some very quick answers. Jim, just to finish 
since you testified last here. Mr. Dickson, you say you don't 
call the INS anymore. Did you used to routinely call them when 
you finished treating them?
    Mr. Dickson. When I first started working, we used to call 
them and----
    Mr. Kolbe. Did they come?
    Mr. Dickson. No.
    Mr. Kolbe. Do you ever recall them coming?
    Mr. Dickson. No. And I called the other hospitals, and they 
don't come to them either.
    Mr. Kolbe. So they do not come and pick them up?
    Mr. Dickson. That's right.
    Mr. Kolbe. You must have some very puzzled immigrants when 
you show them the front door and say have a good day?
    Mr. Dickson. It is tragic. It is a human tragedy. These 
people are going to jobs, and the first thing they want to do 
is to call their job up north and let them know that they are 
on their way.
    And when we have to release people with broken ankles in 
the night, where they have to hobble through the desert for the 
rest of the journey, this is very debilitating, and 
demoralizing to the health care team.
    Mr. Kolbe. Mayor Borane, what changes have you seen since 
September 11th in your community? Has there been any costs to 
your law enforcement or are you seeing changes in your patterns 
of traffic across the border, and shopping, retail?
    Have you seen changes as a result of September 11th?
    Mayor Borane. Well, we had a very good working relationship 
with the U.S. Customs. They were very sensitive to the issue as 
far as our economy was concerned. Things are almost back to 
normal.
    People are coming back and the long lines aren't there any 
more. The effect of September 11th on the crime in our 
community wasn't really that drastic.
    The only thing that we experienced was the loss in 
revenues, and of course with the laser visa situation, which 
hurt us economically.
    Mr. Kolbe. How important do you think a guest worker 
program would be? I mean, I know you have been very outspoken 
on this, but how you think it should be structured to be most 
effective. If you can answer as quickly as possible.
    Mayor Borane. I think what it would do is that it would be 
a deterrent. I think people would get the message in Mexico 
that you don't come across any more because it is under 
control. It is organized, and it is systematic, and it is 
scientific, and you won't get hired unless you are in this 
program.
    And I think above all that it would stop the suffering of 
the people at risk and the dangers that they encounter.
    Mr. Kolbe. One other question. Sheriff Dever, both you and 
I attended that first response conference in Tucson earlier a 
few days ago. Is communications a real problem between our law 
enforcement agencies or lack thereof?
    Sheriff Dever. Yes. A lack thereof is critical. I am glad 
that you asked that question, because there is a looming large 
problem, and it is not on the horizon, but it is actually here 
right now.
    And that is there is a series of degradations where radio 
communications capacity has interference on calls out of 
Mexico.
    Mr. Kolbe. You mean it is getting worse?
    Sheriff Dever. Yes.
    Mr. Kolbe. Is this commercial interference or other law 
enforcement, or is it with the cell phone or what? What about 
it is denigrated?
    Sheriff Dever. It is both. Some of it is official and some 
of it is illegal radio traffic, but the Mexican equivalent of 
the FCC has taken a page out of the U.S. book and is selling 
off certain band widths as the FCC did, and enabling private 
organizations and other people to get into that, which is 
interfering with what we are doing.
    There was some discussion earlier about the need to have 
secure wireless communications, and it is huge here on the 
border, in terms of our ability to beat the enemy to the punch 
if you will.
    We sit out there day in and day out to watch them watch us 
watch them, and listen to them talk about us back and forth, 
and they are hearing everything we can do. And in terms of 
interoperability, the capacity amongst all law enforcement 
agencies--Federal, State, and local--to communicate in a secure 
mode here along the border without interference and degradation 
from the Mexican side.
    Mr. Kolbe. Thank you. Mr. Chairman, I think this highlights 
a significant problem, and I would just like to place in the 
record some statements and I would like to place those in the 
record, including one or two actually from the chairman of the 
Board of Supervisors here for Cochise County. Mr. Thompson has 
written a very excellent statement, and I hope this can be made 
a part of the record.
    Mr. Souder. Yes, it is so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4331.101
    
    [GRAPHIC] [TIFF OMITTED] T4331.102
    
    [GRAPHIC] [TIFF OMITTED] T4331.103
    
    [GRAPHIC] [TIFF OMITTED] T4331.104
    
    [GRAPHIC] [TIFF OMITTED] T4331.105
    
    [GRAPHIC] [TIFF OMITTED] T4331.106
    
    [GRAPHIC] [TIFF OMITTED] T4331.107
    
    [GRAPHIC] [TIFF OMITTED] T4331.108
    
    [GRAPHIC] [TIFF OMITTED] T4331.109
    
    [GRAPHIC] [TIFF OMITTED] T4331.110
    
    [GRAPHIC] [TIFF OMITTED] T4331.111
    
    Mr. Souder. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman. Mr. Dickson, let me 
start with you. Are you able to provide to the committee some 
documentation of the level of increase in treatment which you 
had to provide to illegal aliens either those who get here 
illegally, or those who were brought in under compassionate 
admission?
    Mr. Dickson. I can speak specifically to the Copper Queen. 
In 1998, we had $30,000 in expenses, and we are now close to 
$200,000 for this year.
    Mr. Shadegg. Specifically dedicated to?
    Mr. Dickson. Care of immigration, undocumented. I don't 
like to say illegal aliens. These people cross our border and 
come here for care. They are our neighbors. There is a report 
in there from the Arizona Hospital Association which puts this 
level at about 46 million, and it is increasing every week.
    We have seen no debate, and that is the most frustrating 
thing to hear, is for the INS to say that we have closed border 
and there is less apprehensions. And yet each hospital along 
the border has seen a 30 to 40 percent increase in the amount 
of care that we must provide for these people.
    Mr. Shadegg. Do you segregate between compassionate entry 
and illegal entry?
    Mr. Dickson. No, we do not. To us it is the same. There is 
no compensation for either. We just keep records on the care we 
provide for immigrants that do not have documented status, and 
this is basically the figures that I am giving you.
    But the thing about it is if you close the border down, the 
compassionate entry will go on day, after day, after day. The 
Mexican Health Care System is not at the same level we are.
    They do not have hospitals in these boom towns, and so they 
are coming across the border. And we created these boom towns 
by making it so renumerative to coyotes using people and drugs. 
So it is a very poor system.
    And we want to help these people. We really do, but the 
fact is that it is just so costly.
    Mr. Shadegg. Mayor Borane, I want to thank you for your 
impassioned plea. I guess I would like you to boil down for me 
what specific things you think this committee should go back 
and do.
    It is clear to me that you don't think a fence or an effort 
to keep people out is workable? And it is clear to me that you 
believe or example, in sanctions, that may be a critical part 
of this problem.
    And that is that there is a hypocrisy here. One the one 
hand we say we don't want them in and we tell the INS and the 
Border Patrol to keep them out. At the same time there is 
clearly a demand for them to come in.
    Mayor Borane. When I talked about the hypocrisy, I am very 
serious about it, because we are putting billions of dollars on 
the border with law enforcement. They continue to come through.
    The U.S. Government knows where these people are, and it is 
very, very evident and very, very clear. If they are very 
serious about stopping this, or the magnet, and just pulling 
them over, and then they go to the work place. I don't advocate 
it at all, because that would be in contravention of my 
philosophy regarding the whole issue.
    But the government and its ability to do what they can do 
with the work place would stop it if they wanted to and forget 
about all the billions of dollars on the border, and get it 
organized, and the message would be very, very clear. They are 
not going to hire you because now it is systematic, and it is 
organized, and it is controlled.
    Mr. Kolbe. And, Mr. Chairman, in deference to your 
schedule, I would be happy to conclude.
    Mr. Souder. I have a couple of questions here. Mr. Roll, 
you first made a reference to the Byrne grant. This is a fairly 
popular program among Members of Congress, and it has been 
zeroed out before in budget requests.
    I am not saying it won't come back in, or it is definitely 
coming back in, and we will need to look at it. It is important 
in my district and others, and law enforcement personnel. What 
I don't know about the budget at this point and have not 
analyzed it are whether or not there is things in the border 
dollars that might just actually give a disproportionate impact 
that we come in for on law enforcement prosecution.
    And then in other things at the local level in which you 
might get more of a proportion of Byrne Grants, for example. So 
the school is still out on that question, but it was important 
for us to the inner-relationship with the board, ad I 
appreciate that.
    You also made the statement that in the narcotics 
enforcement that most of those narcotics were headed to places 
other than this areas, and you were in your office prosecuting 
them?
    Mr. Roll. That's' correct.
    Mr. Souder. Do you hand those cases over to the DEA? What 
we have found is that generally the Federal laws are better for 
prosecution than the local areas; and that if you have a 
cooperative U.S. Attorney, we move up the chain, particularly 
if you are part of a bigger question, as opposed to a use or 
local distribution.
    Mr. Roll. Well, that tends not to happen, at least from our 
experience. Now, the U.S. Attorney's Office does handle certain 
cases, but a large number of the routine cases either generated 
by any of the Federal Agencies are referred to the local task 
force, and as a result come to our office for prosecution.
    So that may be true in a very complex case or something 
with a high profile situation, such as a drug tunnel or 
something like that. But the routine run of the mill 200 pounds 
in the back seat of a car, or 50 pounds in a gas tank and that 
type of thing is generally coming to our office for 
prosecution.
    Mr. Souder. Meaning that large a load, they are usually 
busting the individual and not going to a network.
    Mr. Roll. I would say that is generally true.
    Mr. Souder. Sheriff, do you see that also in the cases that 
you handle, as opposed to the cases that the Federal handles?
    Sheriff Dever. Yes, all the Federal Agencies have 
threshold, automatic thresholds that they simply refuse 
prosecution, and we do house the multi-agency task force. So 
those fall to my operations to investigate and prosecute. But 
typically the port of entry cases. We get virtually all of 
those for prosecution.
    Except as Mr. Roll indicated, the very large and very high 
profile kinds of seizures; a tractor trailer rig and something 
like that. But mostly domestic vehicle would come to us.
    Mr. Souder. Mr. Dickson, the cases you come by on 
compassionate care, is there any reason to believe that they 
are going to go back?
    Mr. Dickson. If you can get the INS to transport them, 
because usually when they come to us, it is for a higher level 
of care, and they are brought over--we call it the Cruz-Rojas, 
and that is the Mexican ant that is red, and it depends on the 
level of their need.
    We have had women for babies, and then they will go back 
across the border. They will transport themselves because they 
are local. They are residents of the side of Mexico.
    If we transport gunshot wound victims or other victims, 
then the hospitals in Tucson have to find some way to get them 
back across the border to Mexico. The Mexican Consulate is very 
cooperative in these issues.
    It is El Salvordorians and other patients that we have that 
we can't get transport for them back, and the INS refuses to 
help us with those situations.
    Mr. Souder. If the compassionate cares are standard, why 
doesn't catastrophic care increasingly move toward the border?
    Mr. Dickson. I don't understand.
    Mr. Souder. In other words, if an individual has a serious 
disease, or you have a child with a major disease, why won't in 
Central America and Mexico, if we take those cases, why won't 
they move those cases to the border?
    Mr. Dickson. That is not the case for when we talk about 
passionate entry. Compassionate entry is usually trauma care; 
people who are shot, burn victims, etc.
    Mr. Kolbe. Serious problems.
    Mr. Dickson. And those cases will come across the border. 
They will be treated at a clinicia in Mexico, and then they 
will say, oh, this is beyond our care, and they will come 
across. It usually is not a disease treatment. It is usually 
more trauma that we take care of.
    Mr. Souder. Last might when we were in Douglas, we had a 
late fast dinner at the beautiful and historic Landmark Hotel, 
and as we went through the town, it looked like some areas had 
actually been revitalized fairly well--a number of restaurants 
and different things.
    Do you believe that right at the border there is less drug 
traffic and conflict than there used to be?
    Mayor Borane. I really don't think the restaurants 
themselves are affected that much by September 11th. What 
actually happened was that a couple of the laser visas, the 
smaller businesses, that the people that solicited those and 
patronized those places, they were the ones that were not 
allowed to come back over to, and the long lines were 
discouraging, and consequently we had a couple of the small 
businesses just to just completely demise.
    Mr. Souder. My question is more of do you believe that 
there is less crime and more control in Douglas now than there 
was a year-and-a-half ago?
    Mayor Borane. No.
    Mr. Souder. Thank you. We can do one more round.
    Mr. Kolbe. OK. On the laser visas, Mayor Borane--and while 
I am actually thinking about it, Mr. Capin, your organization 
has actually been opposed to the permanent checkpoints because 
you said you think they fail defense policies. Can you 
elaborate on that and what you mean by that?
    Mr. Capin. Well, I personally believe that we have a 
designated border, and we have had that since the United States 
and Mexico have been different and separate countries. And I 
believe that if we are going to attempt to stop a certain 
amount of cross-border traffic by people who are not documented 
to come into the United States, it should be done at the border 
and not away from the border.
    Mr. Kolbe. Do you think the checkpoints do have an effect 
on tourism coming from the Tucson area down to the border?
    Mr. Capin. I personally think that it has an effect. I 
think people think twice about coming down, because they get 
checked as they across the border in Nogales, and then they 
have to stop again on their way to Tucson, and get checked 
there also. And I think the commercial trucks.
    Mr. Kolbe. And the same thing about Mexicans who might be 
going to Tucson to go shopping?
    Mr. Capin. Exactly. They get stopped twice and they get 
questioned twice.
    Mr. Kolbe. And laser visas, you spoke quite passionately 
about that, and my thinking is that while it has been 
difficult, we are getting them in place, and they are much 
better visa than the old ones.
    Don't you think the system is beginning to work and we are 
getting or beginning to catch up to the numbers of the backlog 
and it is working pretty well now?
    Mayor Borane. I think things are moving along much better, 
especially since you were very influential in getting that 
station in Agua Prieta to speed those things up, but my concern 
is that the laser visa, notwithstanding the deadline that was 
enforced, is the fact that the people that shop in Douglas, AZ, 
are not the same people that shop in Tucson, or Phoenix, or on 
the border. They cannot afford the $45 for that visa.
    Mr. Kolbe. Mr. Capin, is that your experience as well?
    Mr. Capin. I happen to be of the same opinion as Mayor 
Borane. I believe that the average Mexican worker cannot afford 
to pay--and I don't want to disagree with Mayor Borane, but it 
is really $50 to $53.
    It is $45 for the visa, but then they have to pay a certain 
amount of money for delivery, and for long distance telephone 
calls. So the total cold be $50 or $53. It is a deterrent to 
the free trade, and it is also hurting the merchants along the 
border, because those people are not crossing anymore.
    Mr. Kolbe. I don't know if you have experienced, or if it 
has been a case in Nogales, but in Douglas you have experienced 
this, and that is the problem of student visas for Cochise 
College.
    They are supposed to have a student visa to come across. 
These are people who come across paying full tuition and 
wanting to take a couple of classes a Cochise College to better 
themselves from Agua Prieta, but they are not supposed to use a 
laser visa. They are supposed to have a student visa.
    But if they have a student visa, they are supposed to be 
full-time. So it is a real Catch-22. They are not eligible in 
any way to come across under that, and that is a real detriment 
to the college and to the community isn't it?
    Mayor Borane. Yes, absolutely, and that is something that I 
have spoken to your office about, and I think as soon as 
possible that we should really address that as quickly as 
possible.
    Mr. Kolbe. I agree. Do you know if that has been a problem 
in Nogales with Pima College?
    Mr. Capin. I really have no idea.
    Mr. Kolbe. Mr. Chairman, I will submit some other questions 
for the record. I thank you very much.
    Mr. Souder. Mr. Shadegg.
    Mr. Shadegg. Thank you. Let me start first with you, Chris, 
and Larry. You heard Customs testify that they spend a fair 
amount of time trying to sort out who is responsible for 
putting a drug load ito a semi; whether it was the shipper, or 
the importer, or whether it was the trucking company.
    Do you see any reason why we should spend our time and 
energy sorting out that kind of an issue?
    Mr. Roll. Well, there is a certain threshold. There is a 
legal standard for forfeitures, if that is what you are talking 
about, forfeitures in the State of Arizona. And that legal 
standard has to be met before a forfeiture can go forward in 
the State of Arizona. And that does require some knowledge of 
the use of the vehicle.
    Mr. Shadegg. I would like to explore that further. I don't 
know of there is such a legal requirement at the Federal level. 
Mr. Dickson, I hear you saying that one of the serious problems 
you have is that the INS will not want to pick up these illegal 
aliens or the immigrants whom you treated and cared for, 
regardless of the status they are in when they get here.
    And I hear you saying that we ought to be providing that 
care since these are our neighbors, etc. Do you see any limit 
to that? Do you believe we should provide whatever care is 
needed at whatever level, and that it ought to be our job to 
provide that care?
    How do we as a nation deal with the issue of 41 uninsured 
Americans not getting health care, or getting health care only 
in emergency rooms, and plenty of American citizens falling 
short of the health care that we won't argue that they deserve; 
vis a vis illegal immigrants, or maybe compassionate leave or 
compassionate mission immigrants getting care from you and the 
financial burden that puts on the taxpayer, whether that is the 
Cochise County taxpayer or the Federal taxpayer?
    Mr. Dickson. First of all, most of the people that are 
legal immigrants in the larger cities fall into----
    Mr. Shadegg. No, I am not asking you about legal 
immigrants----
    Mr. Dickson. Illegal immigrants.
    Mr. Shadegg. Did you say illegal?
    Mr. Dickson. Yes. They will fall under the Federal 
Medicaid/MediCal, and here we call it AHCCCS program, because 
they can establish that they have been residents of this State 
or in this city for 30 days.
    The people we are talking about cannot establish that, and 
therefore AHCCCS does not pay for this care, although the money 
that the Federal Government specifically designated for this is 
being used in the access program.
    So I don't know how you solve this one, Congressman, for 
the simple reason that I would not want to be a port entry 
person when that ambulance pulls up and tries to do a check and 
stop them from coming over.
    We are required to do a certain level of care on everybody 
that walks into our emergency room, and I am going to shock 
people. I think that some of the law is good, and it ensures a 
level of a standard of care and stops dumping between health 
care providers.
    But the fact is that once you start with a person into the 
system, we can go no less than what we would do for people with 
insurance or Arizonans. Ours is different than those up in San 
Diego, or in Los Angeles.
    We have a transient population and a border crossing 
population, which is a different situation. I know that if you 
go to attack the problem of UDA care throughout the United 
States, it is billions of dollars, and I think that your 
Medicaid, and MediCal, and your AHCCCS programs do address 
those situations.
    But our situation is totally different. It does not qualify 
for those types of safety valve programs, or safety net 
programs that you have. I think we also should approach the 
State of Mexico, the Country of Mexico, and work with them to 
develop their health care system along the border.
    TMC has put in a perinatal unit in Mexico so that the high 
risk babies would not be sent across the border, and they would 
take such a great loss. That is I think a very good genesis 
type of program.
    We should work with them, and recognize that Guadalupe 
Hildalgo put a border here, but we are all part of the same 
community down here.
    Mr. Shadegg. You said that AHCCCS covers most of these 
people, but the problem is that as I understand it, at least at 
the hospitals in Maricopa County, those immigrants who are here 
without the permission of the law do not use their proper name, 
and do not acknowledge their----
    Mr. Dickson. Well, they do not want to get caught. They are 
hiding.
    Mr. Shadegg. And so that winds up being a cost not picked 
up by AHCCCS, or a cost picked up by the Federal Government, 
but a cost picked up by the hospital itself.
    Mr. Dickson. Yes, and the other users and payers of the 
hospital, yes.
    Mr. Shadegg. I just don't see how we can openly pick up the 
tab for everyone in Mexico who wants to get American health 
care, and I think that is a serious problem and when we look at 
the millions of Americans who don't get adequate health care.
    Let me conclude by asking a different question. We have 
heard since we arrived here, or at least Congressman Souder and 
I last night, some conflicting testimony. We have heard from 
some that in the last few months, or perhaps the last year to 
year-and-a-half, the quality of life and the level of crime in 
the communities immediately across the border from where the 
Border Patrol has intensified its efforts has improved.
    That is, crime has gone down in Douglas proper, and crime 
has gone down in Sonora or here, and the quality of life has 
improved as a result of those efforts. Mayor Borane, you just 
said you don't see that, and you said, no, it has not. I guess 
I would like each of the panelists to briefly just state if you 
believe it has gotten better in the last year-and-a-half or no?
    Mayor Borane. Well, if I answered the question erroneously, 
the quality of life has improved in Douglas, AZ, and I 
apologize if I misunderstood the question. The quality of life 
has drastically improved.
    And the reason for that is that the Border Patrol has 
effectively pushed everybody way out into the country. So we 
don't see the numbers coming through the community anymore, and 
we are not annoyed or bothered by the barking dogs, the chasing 
people up the alley, and all the things that are associated 
with that activity.
    But the quality of life has improved, and the answer to 
that, and I am sorry if I misunderstood the question, is yes. 
It may not have gotten any better on the ranches, but it has 
gotten better at least in some areas of the towns. It has 
improved immensely.
    Mr. Shadegg. Would all of you agree with that? Is that an 
accurate characterization?
    Mr. Roll. No, I wouldn't.
    Mr. Shadegg. Chris, go ahead.
    Mr. Roll. You asked a question about what has been our 
observation as to the crime rate, and in our office over the 
last 3 years, in cases received by our office for prosecution, 
and just off the top of my head, but I think we have seen about 
a 50 percent increase in misdemeanor cases coming to our office 
for prosecution over the past 3 years, and about a 50 percent 
increase in felony cases coming to our office for prosecution.
    Last year alone our felony indictments rose by about 30 
percent. So that reflects an increase in crimes that are filed 
to our office for prosecution. One of those factors, and it is 
very difficult perhaps because perhaps it is the economy, or 
perhaps it is the number of agents and officers that are in the 
field.
    There has been a large increase in the number of at least 
Federal Agents in the field in Cochise County, and that has had 
some impact. We also see an impact as a result of the 
immigration taking place, and that there is this alien 
smuggling and drug smuggling taking place.
    And we have car wrecks that result in deaths, and we have 
manslaughter prosecutions, and we have rapes. A deputy in my 
office just finished a trial of a Border Patrol supervisor who 
was convicted in Federal Court in Tucson for raping an El 
Salvadorian woman.
    Mr. Shadegg. Mr. Capin.
    Mr. Capin. I am not sure what you mean by quality of life, 
but according to the Nogales Police Department and Cochise 
County Sheriff, the crime rate in Nogales, AZ, has decreased 
and Nogales, AZ, is a safer place to live.
    But because of the different policies that I brought out in 
my opening remarks, and what is in my testimony, the reduction 
in people crossing our borders to shop in Arizona has caused 
many problems with the businesses in Nogales.
    People have lost their jobs, and people are working less 
hours. They are making less money. Nogales has double-digit 
inflation, and it has always had double-digit inflation since 
1992. And therefore the quality of life for the citizens of 
Nogales has not improved.
    Mr. Shadegg. I appreciate that clarification.
    Mr. Kolbe. You mean unemployment.
    Mr. Capin. What did I say? I'm sorry. Double-digit 
unemployment. It is the second largest unemployment in the 
State of Arizona.
    Mr. Shadegg. I appreciate that clarification. Anybody else?
    Sheriff Dever. Keep in mind where we were a year ago and we 
got to the point where we were spending almost 40 percent of 
our budget on illegal immigration issues just overnight. So 
while there have been some recent improvements in some areas, 
overall--you know, we have 83.5 miles of border.
    Of those 83.5 miles of border, 30\1/2\ of those are private 
property, and it probably belongs to these folks sitting out 
here in this audience. And that is continually being trashed 
every day, fences cut, and those kinds of things.
    And while alien trafficking is down somewhat in some areas, 
it has increased in others, and drug smuggling is at a peak 
right now. We have more drugs coming across the border than we 
have ever had.
    Mr. Shadegg. That is consistent with the information that I 
am receiving, and I appreciate that very much. Thank you, Mr. 
Chairman.
    Mr. Dickson. I would have to say that it is not better. We 
had to close down two very necessary services, long term care, 
and we had to close that down because of financial, and we just 
closed our maternity program.
    And that means that in an area of 4,000 square miles that 
there is no maternity care or maternity unit for these women. 
They now have to travel 100 miles. The degradation of the 
system that has occurred over the last 2 or 3 years, it would 
be the worst for me to say to you that it was better.
    We have collapsed the system, and the system is in a state 
of collapse. I can't say that strong enough. Doctors are 
leaving, and so until we can get back to where we were 2 years 
ago, and 3 years before this immigration put this burden on us.
    Our medical centers in Tucson are closing down their trauma 
centers. Can you imagine if this was the State of Connecticut, 
or the State of Indiana, where you had 6,000 square miles with 
no maternity unit.
    There would be a human cry in this country that would not 
stop, and that is no better. It is worse and it is going to get 
worse until something is done. Thank you.
    Mr. Souder. We have marked sections in southern Indiana 
because some States didn't cap a legal liability on lawsuits 
and some things like that; and pediatricians and wings of 
hospitals shut down, and then they moved in.
    Quite frankly, there would be a tremendous outrage is 
citizens here realized that part of the reason that they are 
losing it is because we are giving free care to people 
elsewhere that is not paid.
    This is a very difficult question for compassionate 
individuals who want to try and help everybody when there are 
finite dollars. And when we try to address this, we are 
facing--I mean, every day, I have a meeting or go to a senior's 
Home, or go to Wal-Mart to shop back in Indiana, and somebody 
is coming up to me and telling me their problems with health 
care.
    We have had multiple rural hospitals close in my district 
as well, and clearly there is a sorting through, and this has 
put additional pressure on the system, but it is not 
sustainable to think that the rest of the country is going to 
pay the health care beyond a small portion.
    We have to figure out how not to have illegals come in and 
the best ways to do that. Clearly some supplemental assistance 
needs to be done in border communities because you are 
disproportionately impacted by labor demand than the rest of 
the country, and demand for narcotics than the rest of the 
country, and even terrorists who seek the other part of the 
country.
    Law enforcement is an extra burden here. Your health care, 
your cities, your commerce is dependent upon those across the 
border. We are trying to figure out how to balance those 
things, which means you will probably never be completely 
happy, and the people in my district will think I am sending 
too many dollars from Indiana down here to help your problems 
down here, when you are getting the financial benefits of the 
trade.
    And additional people move into your community and become 
long time residents. You get some benefits from it as well. And 
that is our tough balance. Clearly it got out of balance in 
Arizona, and it became kind of a no-man's zone that we are 
trying to address.
    We have to watch New Mexico, and parts of Southern Texas 
still are not under control, and quite frankly the elements 
there can be just as bad, whether you are looking at Big Ben 
National Park and that area east of El Paso as it is here in 
Arizona.
    And we are trying to figure out how to do a national 
standard not only for illegal immigration, which is burdening 
lots of our school and health care systems, and try to figure 
out how to manage the workers in a responsible way, and 
combined with the narcotics.
    And where, for example, in Seattle last year there were 34 
homicide and 64 heroin overdoses. In the United States, 18,000 
deaths in this country because of drugs, and they are 
predominantly coming across the border.
    And all of the heroin in recent cases in my district, and 
in cocaine, came across at Douglas and Nogales. So the people 
who are dying in Fort Wayne, the stuff is coming through here.
    Clearly we have a major narcotics problem, and now we see a 
long-term terrorism problem that is expanding around the globe 
as other terrorist groups, in addition to Al-Qaeda, decide to 
do copycat type of things to have an impact on the policies of 
Western Nations.
    It is a tough time for our country, and a tough budget 
time. All of you are on the front lines. But I appreciate for 
you taking the time out to be here today, and I appreciate the 
opportunity to hear your comments.
    And I also want to thank Congressman Kolbe and Congressman 
Shadegg not only for participating, but for helping us identify 
who in the local areas can speak, and how to get the testimony 
in, and how to have a balanced hearing so that we can learn 
from the official record the problems that are facing our 
Nation here on the Arizona border. With that----
    Mr. Shadegg. Thank you. Mr. Chairman, before you close the 
hearing, I do have several statements that I have been 
provided, which I will submit to your staff for inclusion in 
the record.
    Mr. Souder. And we have a week for additional statements, 
and additional comments, charts, to put into the record as 
well. And with that, the subcommittee stands adjourned.
    [Note.--The report entitled, ``Border Impact--Illegal 
Immigrants in Arizona's Border Counties: The Costs of Law 
Enforcement, Criminal Justice and Emergency Medical Services,'' 
may be found in subcommittee files.]
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. John Shadegg and additional 
information submitted for the hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T4331.244

[GRAPHIC] [TIFF OMITTED] T4331.245

[GRAPHIC] [TIFF OMITTED] T4331.112

[GRAPHIC] [TIFF OMITTED] T4331.113

[GRAPHIC] [TIFF OMITTED] T4331.114

[GRAPHIC] [TIFF OMITTED] T4331.115

[GRAPHIC] [TIFF OMITTED] T4331.116

[GRAPHIC] [TIFF OMITTED] T4331.117

[GRAPHIC] [TIFF OMITTED] T4331.118

[GRAPHIC] [TIFF OMITTED] T4331.119

[GRAPHIC] [TIFF OMITTED] T4331.120

[GRAPHIC] [TIFF OMITTED] T4331.121

[GRAPHIC] [TIFF OMITTED] T4331.122

[GRAPHIC] [TIFF OMITTED] T4331.123

[GRAPHIC] [TIFF OMITTED] T4331.124

[GRAPHIC] [TIFF OMITTED] T4331.125

[GRAPHIC] [TIFF OMITTED] T4331.126

[GRAPHIC] [TIFF OMITTED] T4331.127

[GRAPHIC] [TIFF OMITTED] T4331.128

[GRAPHIC] [TIFF OMITTED] T4331.129

[GRAPHIC] [TIFF OMITTED] T4331.130

[GRAPHIC] [TIFF OMITTED] T4331.131

[GRAPHIC] [TIFF OMITTED] T4331.132

[GRAPHIC] [TIFF OMITTED] T4331.133

[GRAPHIC] [TIFF OMITTED] T4331.134

[GRAPHIC] [TIFF OMITTED] T4331.135

[GRAPHIC] [TIFF OMITTED] T4331.136

[GRAPHIC] [TIFF OMITTED] T4331.137

[GRAPHIC] [TIFF OMITTED] T4331.138

[GRAPHIC] [TIFF OMITTED] T4331.139

[GRAPHIC] [TIFF OMITTED] T4331.140

[GRAPHIC] [TIFF OMITTED] T4331.141

[GRAPHIC] [TIFF OMITTED] T4331.142

[GRAPHIC] [TIFF OMITTED] T4331.143

[GRAPHIC] [TIFF OMITTED] T4331.144

[GRAPHIC] [TIFF OMITTED] T4331.145

[GRAPHIC] [TIFF OMITTED] T4331.146

[GRAPHIC] [TIFF OMITTED] T4331.147

[GRAPHIC] [TIFF OMITTED] T4331.148

[GRAPHIC] [TIFF OMITTED] T4331.149

[GRAPHIC] [TIFF OMITTED] T4331.150

[GRAPHIC] [TIFF OMITTED] T4331.151

[GRAPHIC] [TIFF OMITTED] T4331.152

[GRAPHIC] [TIFF OMITTED] T4331.153

[GRAPHIC] [TIFF OMITTED] T4331.154

[GRAPHIC] [TIFF OMITTED] T4331.155

[GRAPHIC] [TIFF OMITTED] T4331.156

[GRAPHIC] [TIFF OMITTED] T4331.157

[GRAPHIC] [TIFF OMITTED] T4331.158

[GRAPHIC] [TIFF OMITTED] T4331.159

[GRAPHIC] [TIFF OMITTED] T4331.160

[GRAPHIC] [TIFF OMITTED] T4331.161

[GRAPHIC] [TIFF OMITTED] T4331.162

[GRAPHIC] [TIFF OMITTED] T4331.163

[GRAPHIC] [TIFF OMITTED] T4331.164

[GRAPHIC] [TIFF OMITTED] T4331.165

[GRAPHIC] [TIFF OMITTED] T4331.166

[GRAPHIC] [TIFF OMITTED] T4331.167

[GRAPHIC] [TIFF OMITTED] T4331.168

[GRAPHIC] [TIFF OMITTED] T4331.169

[GRAPHIC] [TIFF OMITTED] T4331.170

[GRAPHIC] [TIFF OMITTED] T4331.171

[GRAPHIC] [TIFF OMITTED] T4331.172

[GRAPHIC] [TIFF OMITTED] T4331.173

[GRAPHIC] [TIFF OMITTED] T4331.174

[GRAPHIC] [TIFF OMITTED] T4331.175

[GRAPHIC] [TIFF OMITTED] T4331.176

[GRAPHIC] [TIFF OMITTED] T4331.177

[GRAPHIC] [TIFF OMITTED] T4331.178

[GRAPHIC] [TIFF OMITTED] T4331.179

[GRAPHIC] [TIFF OMITTED] T4331.180

[GRAPHIC] [TIFF OMITTED] T4331.181

[GRAPHIC] [TIFF OMITTED] T4331.182

[GRAPHIC] [TIFF OMITTED] T4331.183

[GRAPHIC] [TIFF OMITTED] T4331.184

[GRAPHIC] [TIFF OMITTED] T4331.185

[GRAPHIC] [TIFF OMITTED] T4331.186

[GRAPHIC] [TIFF OMITTED] T4331.187

[GRAPHIC] [TIFF OMITTED] T4331.188

[GRAPHIC] [TIFF OMITTED] T4331.189

[GRAPHIC] [TIFF OMITTED] T4331.190

[GRAPHIC] [TIFF OMITTED] T4331.191

[GRAPHIC] [TIFF OMITTED] T4331.192

[GRAPHIC] [TIFF OMITTED] T4331.193

[GRAPHIC] [TIFF OMITTED] T4331.194

[GRAPHIC] [TIFF OMITTED] T4331.195

[GRAPHIC] [TIFF OMITTED] T4331.196

[GRAPHIC] [TIFF OMITTED] T4331.197

[GRAPHIC] [TIFF OMITTED] T4331.198

[GRAPHIC] [TIFF OMITTED] T4331.199

[GRAPHIC] [TIFF OMITTED] T4331.200

[GRAPHIC] [TIFF OMITTED] T4331.201

[GRAPHIC] [TIFF OMITTED] T4331.202

[GRAPHIC] [TIFF OMITTED] T4331.203

[GRAPHIC] [TIFF OMITTED] T4331.204

[GRAPHIC] [TIFF OMITTED] T4331.205

[GRAPHIC] [TIFF OMITTED] T4331.206

[GRAPHIC] [TIFF OMITTED] T4331.207

[GRAPHIC] [TIFF OMITTED] T4331.208

[GRAPHIC] [TIFF OMITTED] T4331.209

[GRAPHIC] [TIFF OMITTED] T4331.210

[GRAPHIC] [TIFF OMITTED] T4331.211

[GRAPHIC] [TIFF OMITTED] T4331.212

[GRAPHIC] [TIFF OMITTED] T4331.213

[GRAPHIC] [TIFF OMITTED] T4331.214

[GRAPHIC] [TIFF OMITTED] T4331.215

[GRAPHIC] [TIFF OMITTED] T4331.216

[GRAPHIC] [TIFF OMITTED] T4331.217

[GRAPHIC] [TIFF OMITTED] T4331.218

[GRAPHIC] [TIFF OMITTED] T4331.219

[GRAPHIC] [TIFF OMITTED] T4331.220

[GRAPHIC] [TIFF OMITTED] T4331.221

[GRAPHIC] [TIFF OMITTED] T4331.222

[GRAPHIC] [TIFF OMITTED] T4331.223

[GRAPHIC] [TIFF OMITTED] T4331.224

[GRAPHIC] [TIFF OMITTED] T4331.225

[GRAPHIC] [TIFF OMITTED] T4331.226

[GRAPHIC] [TIFF OMITTED] T4331.227

[GRAPHIC] [TIFF OMITTED] T4331.228

[GRAPHIC] [TIFF OMITTED] T4331.229

[GRAPHIC] [TIFF OMITTED] T4331.230

[GRAPHIC] [TIFF OMITTED] T4331.231

[GRAPHIC] [TIFF OMITTED] T4331.232

[GRAPHIC] [TIFF OMITTED] T4331.233

[GRAPHIC] [TIFF OMITTED] T4331.234

[GRAPHIC] [TIFF OMITTED] T4331.235

[GRAPHIC] [TIFF OMITTED] T4331.236

[GRAPHIC] [TIFF OMITTED] T4331.237

[GRAPHIC] [TIFF OMITTED] T4331.238

[GRAPHIC] [TIFF OMITTED] T4331.239

[GRAPHIC] [TIFF OMITTED] T4331.240

[GRAPHIC] [TIFF OMITTED] T4331.241

[GRAPHIC] [TIFF OMITTED] T4331.242

[GRAPHIC] [TIFF OMITTED] T4331.243

                                   - 

</pre></body></html>
